<html>
<title> - JUVENILE JUSTICE IN INDIAN COUNTRY: CHALLENGES AND PROMISING STRATEGIES</title>
<body><pre>[Senate Hearing 114-134]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-134

JUVENILE JUSTICE IN INDIAN COUNTRY: CHALLENGES AND PROMISING STRATEGIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-132 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          















                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2015....................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Daines......................................    32
Statement of Senator Heitkamp....................................    34
Statement of Senator Hoeven......................................    47
Statement of Senator Lankford....................................    37
Statement of Senator Murkowski...................................    40
Statement of Senator Tester......................................    42
Statement of Senator Udall.......................................    38

                               Witnesses

Cruzan, Darren, Director, Office of Justice Services, Bureau of 
  Indian Affairs, U.S. Department of the Interior................     9
    Prepared statement...........................................     9
Knapp, Carla, National Director of Native Services, Boys and 
  Girls Clubs of America.........................................    21
    Prepared statement...........................................    22
Listenbee, Hon. Robert L., Administrator, Office of Juvenile 
  Justice and Delinquency Prevention, U.S. Department of Justice.     2
    Prepared statement...........................................     4
Rolnick, Addie C., Associate Professor, William S. Boyd School of 
  Law, University of Nevada......................................    11
    Prepared statement...........................................    12

                                Appendix

National Indian Education Association, prepared statement........    53
Response to written questions submitted by Hon. Al Franken to 
  Darren Cruzan..................................................    55
Susman, Thomas M., Director, Governmental Affairs Office, 
  prepared statement.............................................    51

 
JUVENILE JUSTICE IN INDIAN COUNTRY: CHALLENGES AND PROMISING STRATEGIES

                              ----------                              


                        WEDNESDAY, JULY 15, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today the Committee will examine juvenile justice in Indian 
Country: the challenges and promising strategies.
    Indian communities are strong and thriving, but face many 
challenges and issues. I have heard from many tribal leaders 
and parents from these communities. None of the issues are more 
important to them than those affecting their children.
    One area that has not received enough attention from 
Congress relates to the Native youth in the justice system. 
Congress passed the Tribal Law and Order Act of 2010, in part 
to improve juvenile justice for Indian communities. The Act 
also established the Indian Law and Order Commission to examine 
juvenile justice as part of its comprehensive study of law 
enforcement and criminal justice in Indian Country.
    The Commission's final report was issued on November 12, 
2013. Among the more troubling findings of that report are 
those related to juvenile justice. The Commission found that 
Native American youth are overrepresented in both Federal and 
State juvenile justice systems and receive harsher sentences 
than other juveniles.
    This finding dovetails with those of the Attorney General's 
Advisory Committee on American Indian-Alaska Native Children 
Exposed to Violence Task Force. The Advisory Committee Report, 
issued in November, 2014, called into question the 
effectiveness of the juvenile justice systems in which these 
children may be involved. Both reports indicated that, while in 
the system, these young people were not receiving the services 
needed to rehabilitate them or to prevent recidivism. It is 
incumbent upon both the Administration and Congress to examine 
the challenges facing these young people.
    As Chairman, I made juvenile justice one of my key 
priorities. I intend to work closely with the Administration 
and our members to find the best strategies and solutions to 
help these young people turn their lives around. Today is a 
good start.
    I welcome the witnesses.
    We are apparently going to have seven roll call votes, 
beginning at 3 o'clock. I hope to get through the entire 
hearing so everyone has a chance to be heard and members have a 
chance to ask their questions. That is why I wanted to start 
before some of the other members have gotten here. When the 
Vice Chairman arrives, we will hear from him with an opening 
statement.
    I want to thank you all for being here today. I want to 
remind the witnesses your full testimony will be made a part of 
the official hearing record. Please keep your statements to 
five minutes so we may have time for questions. I look forward 
to hearing your testimony today.
    Senator Crapo, I appreciate your giving up your time so 
that we can hear from our witnesses.
    First, we will hear from the Honorable Robert Listenbee, 
Administrator, Office of Juvenile Justice and Delinquency 
Prevention, U.S. Department of Justice. Thank you for joining 
us.

            STATEMENT OF HON. ROBERT L. LISTENBEE, 
         ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND 
       DELINQUENCY PREVENTION, U.S. DEPARTMENT OF JUSTICE

    Mr. Listenbee. Thank you, Chairman Barrasso and 
distinguished members of the Committee.
    I am grateful for this opportunity to discuss with you the 
challenges surrounding juvenile justice in Indian Country and 
the steps that we, at the Department of Justice, are taking to 
improve our responses to tribal youth.
    As Administrator of the Office of Juvenile Justice and 
Delinquency Prevention within the Department's Office of 
Justice Programs, I have the privilege of overseeing a host of 
programs designed to support tribes as they serve their 
youngest members. I believe, and I know that each of you also 
believe, tribal youth represent the link between a proud 
heritage and a promising future for all our Indian Nations.
    My office is working diligently to support Native youth, 
many of whom have faced terrible hardships in their young 
lives. The work we are doing on their behalf fits squarely 
within the priorities I have set for my office, making our 
Nation's juvenile justice system more evidence-based and 
developmentally-informed, improving compliance with the core 
requirements of our statutory mission, and reducing out-of-home 
placement.
    Operating in accordance with these goals, I believe we can 
narrow the front door to the juvenile justice systems and at 
the same time make our juvenile justice agencies more 
responsive to the unique needs of our young people.
    In my view, juvenile justice reform is an urgent matter. 
Nowhere is the issue more pressing than in Indian Country. 
Cases involving Native youth are complicated by a host of 
challenges, including a bewildering jurisdictional patchwork 
and absence of tribal juvenile codes to guide justice 
professionals and a failure of State and Federal systems to 
account for the cultural needs of youth.
    High rates of trauma in Indian Country make matters even 
worse. The Attorney General's Advisory Committee on American 
Indian-Alaska Native Children Exposed to Violence found that 
among Native children who enter juvenile justice systems, the 
prevalence of trauma symptoms due to violence exposure is 
estimated at 73 percent to 95 percent.
    The needs are great and I am proud that my office and my 
partners throughout the Office of Justice Programs and the 
Department of Justice are stepping up to try to meet these 
challenges. I describe these issues more fully in my written 
testimony and will now briefly note them.
    First, in an effort to mitigate the impact of violence in 
youth, we are funding demonstration programs at the Rosebud 
Sioux Tribe in South Dakota and the Chippewa Cree Tribe in 
Montana that use traditional practices to enhance resilience in 
children exposed to violence.
    Second, we are working to prevent tribal youth from 
entering the juvenile justice system. Our goal of Mentoring 
Opportunities for Youth Initiative is to connect substantially 
more Native youth to positive adult influences. Our Tribal 
Youth Program supports skill development, education and 
traditional methods by talking circles to help at-risk youth.
    Third, we are providing greater access to culturally-based 
diversion alternatives. The five tribal healing to wellness 
courts we fund are using drug court principles to complement 
traditional approaches to counter underage drinking. Through a 
public-private partnership with the Annie E. Casey Foundation, 
we have launched a tribal pilot site as part of the Juvenile 
Detention Alternatives Initiative.
    Fourth, we are collaborating with the Bureau of Indian 
Affairs to update the Model Indian Juvenile Code. The Code 
specifically addresses issues affecting Native youth arrested 
for alcohol and drug-related offenses and reflects Federal 
legislative updates and the latest developments in the field of 
juvenile justice.
    Finally, we are widening tribal access to our resources. 
The Department of Justice's Coordinated Tribal Assistance 
Solicitation, which includes the Tribal Youth Program, offers 
tribes a more streamlined approach to applying for grants. Over 
the last five years, the Department has awarded more than 1,100 
grants totaling almost $530 million under this program. The 
President's budget request for fiscal year 2016 includes a 
seven percent set-aside from Office of Justice Programs 
discretionary funds for tribal justice assistance grants.
    The set-aside will provide a flexible source of tribally-
specific funding that could be used to identify and address the 
most important criminal and juvenile justice priorities.
    Mr. Chairman, I have met many young people in my travels in 
Indian Country. On July 9, I met even more when, along with 
Senator Heitkamp and Mr. Cruzan, I had the privilege of 
participating in the White House's inaugural Tribal Youth 
Gathering.
    These young people have amazed and truly inspired me by 
their courage and their faith in the future. Many have traveled 
a hard road and sometimes that road has led to trouble, but I 
believe, with few exceptions, that they have much to offer to 
their families, to their communities and to this Nation. I am 
committed to doing my part to help them realize their promise.
    I appreciate the opportunity to appear before you today. I 
am prepared to answer any questions you have.
    [The prepared statement of Mr. Listenbee follows:]

 Prepared Statement of Hon. Robert L. Listenbee, Administrator, Office 
  of Juvenile Justice and Delinquency Prevention, U.S. Department of 
                                Justice
    Chairman Barrasso, Vice Chairman Tester and other distinguished 
members of the committee, thank you for this opportunity to discuss 
juvenile justice in Indian Country. As Administrator of the Office of 
Juvenile Justice and Delinquency Prevention (OJJDP) at the Department 
of Justice's Office of Justice Programs (OJP), I oversee programs that 
provide direct assistance and services to American Indian and Alaska 
Native tribes. We work closely with tribal elders, tribal leaders and 
youth, and tribal organizations to develop programs that are grounded 
in Native culture and practice.
Introduction
    As you are aware, this past year OJJDP celebrated the 40th 
anniversary of the legislation that established our Office--the 
Juvenile Justice and Delinquency Prevention Act (JJDPA). Our mission is 
to provide national leadership, coordination, and resources to prevent 
and respond to juvenile delinquency and victimization. Our goal is that 
if youth do come into contact with the juvenile justice system, that 
contact should be rare, fair, and beneficial to them.
    Together, OJJDP and its federal, state, local and tribal partners 
have made significant progress in these areas during the last 40 years. 
For instance, the U.S. violent crime arrest rate for youth is at the 
lowest point since at least the 1980s, and we have seen a marked 
nationwide decline in the population of youth in residential placement 
overall, including the number of youth in residential placement for 
committing status offenses, like violating curfew and truancy 
violations. But we all know there is still much work to be done, 
particularly within tribes.
    One of my priorities as OJJDP Administrator has been reforming 
juvenile justice to make it smarter--more intuitive, more responsive, 
and more evidence-based. In 2013, at the direction of OJJDP, the 
National Academy of Sciences released a groundbreaking report on 
advances in neuroscience research as they relate to juvenile justice 
reform. Our agency is already using this information to lead reform 
efforts.
    Another priority, and a goal that I believe we all share, is 
reducing out-of-home placement. Quite simply, the best way to prevent 
kids from going deep into the system is to keep them out of the system 
in the first place. Research shows--and we've seen firsthand--that 
troubled youth often have better outcomes when they receive targeted, 
appropriate, community-based treatment and services. This is especially 
true for tribal youth. \1\ We know that tribal culture and tribal 
family connections play an essential role in working successfully with 
tribal youth in the juvenile justice system. Narrowing the ``front 
door'' to the juvenile justice system is one of the most important ways 
we can continue to improve outcomes for all youth. We need to provide 
the right services to the right kids at the right time to keep them out 
of the juvenile justice system. There is no such thing as a one-size-
fits-all solution. This also means that we need to take a closer look 
at how young people and their families are treated no matter how they 
come into contact with our system.
---------------------------------------------------------------------------
    \1\ Attorney General's Advisory Committee on American Indian and 
Alaska Native Children Exposed to Violence. (November 2014): Ending 
Violence So Children Can Thrive.http://www.justice.gov/sites/default/
files/defendingchildhood/pages/attachments/2015/03/23/
ending_violence_so_children_can_thrive.pdf
---------------------------------------------------------------------------
Challenges
    We need juvenile justice reform throughout the nation, including in 
cases involving tribal youth. As the Committee is aware, tribal 
communities face unique challenges and pressures.
    The first challenge is the dangerously high exposure to violence 
and the ensuing trauma for tribal youth. Violence, including assaults, 
homicide, and suicide, accounts for 75 percent of deaths of tribal 
youth ages 12 to 20. \2\ These serious adversities often lead to 
chronic and severe trauma. Tribal youth are two and a half times more 
likely to experience trauma from exposure to violence than their non-
tribal peers. A recent report noted that tribal children and youth 
experience posttraumatic stress disorder (PTSD) at a rate of 22 
percent, the same rate as veterans returning from Iraq and Afghanistan, 
and triple the rate of the general population. \3\
---------------------------------------------------------------------------
    \2\ Dolores Subia BigFoot et al., ``Cultural Issues in Historical 
Trauma and Implications for Youth at Risk,'' National Child Traumatic 
Stress Network and Indian Country Child Trauma Center: 19 (2007), 
available at: http://www.isu.edu/irh/projects/ysp/downloads/
CulturalIssuesinHistoricalTrauma.pdf
    \3\ Deters, P. B., Novins, D. K., Fickenscher, A., & Beals, J. 
(2006). Trauma and posttraumatic stress disorder symptomatology: 
Patterns among American Indian and Alaska Native adolescents in 
substance abuse treatment. American Journal of Orthopsychiatry, 76(3), 
335-345.
---------------------------------------------------------------------------
    Compounding these high rates of violence in tribal communities is 
historical trauma, which is a cumulative emotional and psychological 
wounding over the life span and across generations. The Attorney 
General's National Task Force on Children Exposed to Violence found 
that the degree of violence in tribal communities is related to 
historical trauma and the impact of policies and practices that have 
proved devastating to tribal communities.
    The Task Force found that children who are traumatized by exposure 
to violence are at greater risk for substance abuse, school failure and 
involvement in the juvenile and criminal justice systems. Of tribal 
children who enter the juvenile justice system, the prevalence of 
trauma symptoms due to violence exposure is estimated at 73 to 95 
percent. \4\
---------------------------------------------------------------------------
    \4\ Attorney General's Advisory Committee on American Indian and 
Alaska Native Children Exposed to Violence. (November 2014): Ending 
Violence So Children Can Thrive.http://www.justice.gov/sites/default/
files/defendingchildhood/pages/attachments/2015/03/23/
ending_violence_so_children_can_thrive.pdf
---------------------------------------------------------------------------
    When tribal youth do enter the juvenile justice system, they are 
often exposed to a host of other problems. Depending upon where a 
delinquent act takes place, the race of the victim, \5\ the seriousness 
of the act, and whether PL-280 or a similar-styled law applies, one or 
more of three systems--tribal, state or federal--could have 
jurisdiction.
---------------------------------------------------------------------------
    \5\ Id.
---------------------------------------------------------------------------
    Many tribal communities have no juvenile code, and too many tribes 
have copied their codes from nontribal entities which do not reflect 
their own tribal values and beliefs. Some tribes show an over-reliance 
on detention, even for status offenders--including children held for 
truancy or curfew violations.
    Even states with significant populations of tribal children and 
youth sometimes fail to communicate with the tribes. Neither states nor 
the federal government are required to notify the tribe or involve the 
tribe in juvenile justice proceedings involving one of their children.
    Tribal youth prosecuted in the federal system may spend more time 
in secure confinement than tribal youth prosecuted in the state 
systems--sometimes by several years. \6\ Federal sentences are usually 
longer than state sentences for identical crimes. \7\ Furthermore, 
tribal youth prosecuted in the federal system (despite being a 
relatively small number of the total number prosecuted federally) are 
placed where there is bed space contracted by the Bureau of Prisons, 
which may mean that they are not close to their families and loved 
ones.
---------------------------------------------------------------------------
    \6\ Id.
    \7\ Id.
---------------------------------------------------------------------------
    A related challenge is that tribal youth in juvenile delinquency 
systems are at times not exposed to programming or education that take 
into account tribal culture or familial bonds. Juvenile justice systems 
may use practices, such as those that do not take into account 
historical trauma that may have worked for non-tribal youth but do not 
necessarily apply for tribal youth. There is always a need for tribal-
based, culturally specific alternatives to detention for tribal 
children.
    Another challenge is related to available resources. Over time, the 
OJP appropriation for dedicated Tribal Justice Assistance dropped from 
$75 million in FY 2010 to $35 million in FY 2015 and the funding for 
tribal juvenile justice declined from $25 million in FY 2010 to $5 
million in FY 2015. There is a critical need for resources, including: 
increased health services, behavioral health services, substance abuse 
treatment, indigent defense, and an array of diversion services to keep 
tribal youth in their communities as opposed to being placed out of 
home. In addition, the availability of other supportive and preventive 
services, including tribal specific mentoring programs, are important 
to address at-risk and high-risk youth but these are also lacking.
Responding to the Challenges
    As I emphasized in my November 2014 testimony before this 
Committee, the Department of Justice, OJP and OJJDP are all fully 
committed to partnering with tribal governments to build a better 
future for all young people and to improve public safety in tribal 
communities. A key part of this effort was the creation of the Attorney 
General's Task Force on American Indian and Alaska Native Children 
Exposed to Violence. \8\ The Task Force consisted of two components:
---------------------------------------------------------------------------
    \8\ Task Force on American Indian and Alaska Native Children 
Exposed to Violence website: http://www.justice.gov/defendingchildhood/
task-force-american-indian-and-alaska-native-children-exposed-violence

  <bullet> An Advisory Committee, composed of non-federal subject 
        matter experts, that: (1) gathered information from public 
        hearings, written testimony, site visits, listening sessions, 
        and current research; and (2) used this information to draft a 
        report to the Attorney General that included recommendations to 
        effectively address children's exposure to violence in Indian 
        Country. \9\
---------------------------------------------------------------------------
    \9\ It is noteworthy that while given their charge by the Attorney 
General, the Advisory Committee felt strongly that the problems facing 
American Indian and Alaska Native children are so significant that only 
concerted action by the Executive branch agencies and Congress would 
begin to address them. Accordingly, they chose to address their 
recommendations to entities beyond the Department of Justice.

  <bullet> A Federal Working Group, composed of federal officials from 
        key agencies including the Departments of Justice and Interior 
        and Health and Human Services who had experience with issues 
        affecting tribal communities. This working group was positioned 
        to take immediate steps to implement policy and programmatic 
---------------------------------------------------------------------------
        changes for the benefit of tribal children exposed to violence.

    The Advisory Committee, Co-Chaired by Senator Byron L. Dorgan and 
Ms. Joanne Shenandoah, held hearings in four locations (Bismarck, ND; 
Phoenix, AZ; Fort Lauderdale, FL; and Anchorage, AK) and six listening 
sessions nationwide which brought together national, regional, and 
local experts, solicited personal testimony, and provided a forum for 
discussion on the effects of exposure to violence and promising 
prevention and intervention strategies and programs. \10\
---------------------------------------------------------------------------
    \10\ American Indian and Alaska Native Children Exposed to Violence 
Hearing Testimony: http://www.justice.gov/defendingchildhood/task-
force-hearings
---------------------------------------------------------------------------
    The Task Force is just one example of our efforts to address the 
trauma and victimization of tribal youth, which has a strong 
correlation to these youth entering the juvenile justice system. As a 
part of the Attorney General's Defending Childhood Initiative, OJJDP 
funded two sites that are tribally-directed and sensitive to tribal 
traditions and culture. The Rosebud Sioux Tribe in South Dakota 
delivers trauma-informed services, rooted in Lakota values that address 
educational, justice system, and health-care needs. The Chippewa Cree 
Tribe at the Rocky Boy reservation in Montana is involving elders and 
youth from throughout the community in the design of prevention and 
treatment programs that rely on traditional health and healing methods. 
These are promising approaches derived from tribal customs that are 
aimed at enhancing resilience in affected children, and they represent 
some of the exciting work already being done to support tribal 
children. Last year leaders from both tribes participated in a three-
day training on indigenous treatment for trauma offered by the National 
Native Child Trauma Center.
    We also work closely with OJP's Office for Victims of Crime (OVC) 
which supports a number of programs serving tribal youth. Each year OVC 
provides $3 million to the Children's Justice Act (CJA) Partnerships 
for Indian Communities Grant Program. The funding supports the 
development and implementation of comprehensive programs for abused 
children, and procedures to address child abuse cases in tribal courts 
and child protection service systems. OVC is also working with the 
Flandreau Indian School, a Bureau of Indian Education boarding school 
in South Dakota, to provide specialized mental health services to 
students identified as victims. To date, OVC has provided over $1 
million to support this 5-year demonstration project to establish a 
culturally appropriate, trauma-informed system of care for students who 
come to school with histories of long-term exposure to violence, 
trauma, and victimization.
    And most recently, OVC began providing funding to the Montana Board 
of Crime Control to implement the Vision 21: Linking Systems of Care 
for Children and Youth Program. This 6-year program will enable Montana 
to conduct tribal and non-tribal community listening sessions and then 
bring together all of the systems that serve youth--from health to 
education to juvenile justice--to establish a streamlined approach to 
identify young victims and connect them to the services and resources 
they need to heal and thrive.
    OJP's National Institute of Justice (NIJ), in partnership with 
OJJDP and OVC, is funding a 30-month study intended to improve the 
health and well-being of tribal youth who may have been exposed to 
violence and victimization. The study will develop and test a survey 
instrument and different administration modes that can effectively 
assess exposure to violence and victimization and determine the 
feasibility of using these procedures in tribal communities and 
settings.
    As I noted at the beginning, we must work to prevent youth from 
entering the juvenile justice system in the first place. One way to do 
this is through enhancing mentoring programs. Our FY 2015 Mentoring 
Opportunities for Youth Initiative requires National mentoring program 
applicants to target mentoring services and programs to tribal youth 
both on and off reservations. We are giving priority consideration to 
Multi-State program applicants--especially those that work with 
tribes--that do the same. Our goal is to substantially increase the 
number of tribal youth that receive mentoring services from OJJDP funds 
over the next 18 months. We will also expand the services provided by 
the OJJDP National Mentoring Resource Center for tribal mentoring 
programs.
    Through our Tribal Youth Program (TYP), we support initiatives 
targeting at-risk youth in a way that is directed to their specific 
needs. For example, the Cherokee Nation is using our funds for an in-
home intervention program targeting tribal youth ages 5-17 who reside 
in Adair County, OK and their families. Youth are identified by the 
school through their low or declining school attendance. The program 
then provides intensive, individualized, in-home skill building and 
educational services to these youth and families. Through this effort 
the tribe keeps the youth in their home community as productive, 
contributing citizens.
    The Lac Courte Oreilles Band of Lake Superior Chippewa (LCO) uses 
TYP funds for its Comprehensive Truancy Prevention Project. The 
research based, integrated curriculum targets character development and 
essential skills development for youth and parents or parenting 
figures. These systematic, step-by-step curricula alter how students 
think, improve their decisionmaking, and promote actions and behaviors 
focused on changing negative relationships.
    TYP is also one of our efforts to help tribes improve their 
juvenile justice systems. For example, the Kenaitze Indian Tribe uses 
indigenous principles and culturally relevant practices to help tribal 
youth in the Central Kenai Peninsula. The project's coordinators 
conduct intake interviews and risk assessments for youth involved in 
the juvenile justice system, and also educate youth and adults on the 
principles and practices of the traditional Talking Circle approach to 
addressing difficulties and discussing important matters. The program 
diverts youth who might otherwise end up in district court.
    Another example of our work on juvenile justice reform is our 
support of Tribal Healing to Wellness Courts, which respond to alcohol-
related issues of tribal youth who are younger than 21. A Tribal 
Healing to Wellness Court is not simply a tribal criminal or family 
court that orders individuals to treatment. Rather, it is an innovative 
and collaborative legal process that adapts the drug court concept and 
its key components to meet the need of referred youth in a manner that 
respects and includes tribal traditions. Under this initiative, 
participating courts are developing or enhancing policy, procedure, 
assessment tools, or service models that address underage drinking. A 
second component of the initiative will deliver training and technical 
assistance to the participating tribal courts. All programming is based 
on the 10 Key Components of an effective Tribal Healing to Wellness 
Courts, modeled after policies developed by the National Association of 
Drug Court Professionals. Current funding supports five tribes--Yurok 
Tribe (CA), Lac Du Flambeau Tribe of Lake Superior Chippewa Indians 
(WI), Southern Ute Indian Tribe (CO), White Earth Nation (MN), 
Winnebago Tribe of Nebraska (NE)--and a training and technical 
assistance provider. We will expand the program in Fiscal Year 2015 to 
support additional tribes.
    In addition, OJJDP initiated a public-private partnership with the 
Annie E. Casey Foundation to expand the Juvenile Detention Alternatives 
Initiative (JDAI) to additional sites throughout Indian Country, 
including a pilot tribal site. The Department began work with the 
Mississippi Band of Choctaw Indians to juvenile justice system reform 
work in 2013. Since this time, Tribal elders and council members have 
participated in targeted training, and the availability of technical 
assistance is supporting the development of a local collaborative to 
lead their work in enhancing data collection, program development and 
court improvements.
    Through our Tribal Youth Program Training and Technical Assistance 
Center, teams of specialists are available across Indian Country to 
support interventions for court-involved youth, improvements to the 
juvenile justice system. The Center also conducts strategic planning 
meetings; a National Conference; site visits; peer-learning; 
teleconferences; webinars; and e-mail consultations. Recently the 
Center developed a Community of Practice to assist tribes that are 
developing or revising their juvenile codes and is hosting a webinar 
series on cultural adaptations to evidence-based programs.
    OJJDP is working with the Bureau of Indian Affairs to update the 
Model Indian Juvenile Code, which assists federally recognized tribes 
in creating individual codes focused on juvenile matters. The Code 
specifically addresses issues affecting tribal youth arrested for 
alcohol and/or drug-related offenses in Indian Country. The updated 
Code will reflect key changes in the field of juvenile justice, 
including the enactment of the Tribal Law and Order Act and the Patient 
Protection and Affordable Care Act.
CTAS and the 7 Percent Set-Aside
    Starting in Fiscal Year 2010, TYP became part of the Department's 
Coordinated Tribal Assistance Solicitation (CTAS) which offers tribes a 
more streamlined, comprehensive grant process. CTAS gives tribes the 
flexibility needed to better address their criminal justice, juvenile 
justice and public safety needs. Since Fiscal Year 2010, the Department 
awarded over 1,100 CTAS grants totaling almost $530 million to American 
Indian tribes, Alaska Native villages, tribal consortia and tribal 
designees. The grants address nine purpose areas including public 
safety; community policing; justice systems planning; alcohol abuse; 
substance abuse; corrections and correctional alternatives; violence 
against women; juvenile justice; and crime victims' programs.
    Our commitment to improving juvenile justice in Indian County and 
tribal public safety and criminal justice is clear in the FY 2016 
President's Budget for the Department of Justice. The budget includes a 
7 percent set-aside from OJP's discretionary funds for grant or 
reimbursement programs for flexible tribal justice assistance grants. 
The set-aside, estimated at $114.4 million, will provide a consistent 
source of significant, tribal-specific grant funding that can be 
distributed through a flexible tribal assistance grants model based on 
the lessons learned from CTAS. It will also allow OJP increased 
flexibility in awarding funds and streamlining reporting requirements. 
The funding provided by the set-aside will enable the tribes to focus 
on identifying their most important criminal and juvenile justice 
priorities and developing innovative, evidence-based responses to 
address these priorities.
Closing Statement
    On July 9, I had the privilege of participating in the White 
House's inaugural Tribal Youth Gathering, which was convened in 
collaboration with the United National Indian Tribal Youth (UNITY) and 
the Departments of Justice and Health and Human Services. The Youth 
Gathering brought together over 850 tribal youth for a day-long 
convening to discuss issues that directly impact them, including 
cultural protection and revitalization, education, behavioral health 
and wellness, climate change and natural resources, tribal justice, and 
economic opportunity. Many of these youth have faced terrible hardships 
in their childhood, and their communities have suffered through the 
conditions we are discussing today. Despite these challenges, these 
young people have become leaders and are working to create a brighter 
future not only for tribal youth, but for youth across the entire 
nation. Meeting these young people inspired me, as I am sure it did all 
of the adults at the Gathering. They show that working together, the 
problems we are discussing are not insurmountable.
    Mr. Chairman, we must match the dedication our tribal young people 
have demonstrated. We are committed to working with tribes, Members of 
Congress, and our partner agencies within the Department of Justice and 
throughout federal and state governments, to strengthen the juvenile 
justice system's efforts to protect public safety, hold young offenders 
appropriately accountable and provide services that address the needs 
of youth and their families. I appreciate the opportunity to appear 
before you today, and I am prepared to respond to any questions you may 
have.

    The Chairman. Thank you, Mr. Listenbee. We appreciate your 
comments.
    Next, we have Mr. Darren Cruzan, Director, Office of 
Justice Services, Bureau of Indian Affairs, U.S. Department of 
Interior. Thank you for being with us today.

        STATEMENT OF DARREN CRUZAN, DIRECTOR, OFFICE OF 
          JUSTICE SERVICES, BUREAU OF INDIAN AFFAIRS, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Cruzan. Senator, thank you.
    I think there has been a great deal of research and studies 
done citing that simply incarcerating juveniles is not helpful. 
In fact, I think there are a lot of studies that point to the 
fact that it is more harmful than helpful.
    Tribes have been telling us this for a long time. 
Fortunately, the Federal Government is beginning to listen and 
to partner with local programs to help the tribes address these 
issues. They have talked about it for a long time and it is 
very encouraging to have our Federal partners as part of the 
solution with our tribal partners.
    No one disputes the fact that Indian Country has a higher 
drug and alcohol abuse problem. The youth are seeing violence 
way more frequently than off the reservation. I think as 
critical as it is for us to be having this conversation about 
juvenile justice, I think equal focus should be given to 
healthy communities, healthy families and healthy communities 
to support these kids.
    I know we are short on time. I know my testimony will be 
entered in the record, so I will stop right there.
    [The prepared statement of Mr. Cruzan follows:]

   Prepared Statement of Darren Cruzan, Director, Office of Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. Thank you for the opportunity to provide a 
statement on behalf of the Department of the Interior (Department), 
Bureau of Indian Affairs (BIA). The BIA recognizes the tremendous 
challenge for juveniles in Indian Country and agrees with the Indian 
Law and Order Commission report, A Roadmap for Making Native America 
Safer (``Report'') which finds that Native children are among the most 
vulnerable groups of children in the United States, with more than a 
quarter of these children living in poverty compared to 13 percent of 
the general population.
    Native children are exposed to violence at extremely high levels, 
and are at a greater risk of experiencing trauma compared to their non-
Native peers. According to the U.S. Department of Justice's (DOJ) 
Defending Childhood Initiative, exposure to violence causes major 
disruptions of basic cognitive, emotional and brain functioning that 
are essential for optimal development and thus if exposure to violence 
goes untreated, these children are at a significantly greater risk than 
their peers for aggressive, disruptive behaviors; school failure; and 
alcohol and drug abuse.
    In light of these significant challenges facing our Native youth, 
the BIA has recognized that the conventional juvenile justice approach 
of simply incarcerating juveniles is not effective and may, in fact, 
increase delinquency rates. The BIA has incorporated the research found 
in the report by the U.S. National Library of Medicine-Adolescent Brain 
Development and Drugs which finds that adolescent brains develop later 
in life than previously thought, further emphasizing that the 
effectiveness of incarceration has limited success. Thus, BIA urges 
policy makers to transition toward less punitive models of juvenile 
justice. The BIA also encourages juvenile systems to offer solution-
focused alternatives to incarceration and more restorative approaches 
and early intervention options for juveniles within Indian Country.
    Taking the view that incarceration does more harm than good, the 
BIA has begun a staged approach to address youth alcohol, drug abuse 
and safety by focusing on alternatives to incarceration for the 
juvenile population, such as: providing funding and training that is 
focused on the implementation of innovative service models that include 
traditional healing options. Such options include talking circles for 
truant juveniles; recovery resource and wellness centers to address 
alcohol and substance abuse challenges, and systematic, comprehensive 
assessments of need, risk and responsivity specific to each individual 
juvenile involved in the system. These efforts will be combined with 
emphasizing the importance of utilizing automated case management 
systems to track progress and allow for more effective communication 
between service disciplines in the community that all move toward 
creating a first-ever juvenile justice common data platform.
    The BIA also conducts Tribal Court Assessments which have been 
modified to evaluate the challenges and successes of juvenile justice 
systems in Indian Country. For example, Juvenile Wellness Courts 
include options for effective drug and alcohol treatment programs as 
well as bringing in traditional practices, such as ``traditional 
talking circles'' which have been effective in combating truancy in 
some tribal courts. In one instance, a ``traditional talking circle'' 
program was created specifically for juveniles who were adjudicated 
truant by the tribal court. Within a year, the ``traditional talking 
circle'' program addressed traumatic issues facing those juveniles and 
graduated five (5) young Native women from high school, who otherwise 
would not have completed their high school education.
    In one particular boarding school, a promising Juvenile Justice 
System practice will be implemented by the BIA in 2016, in conjunction 
with school leadership. This new process is based on the concept of 
Partnership for Alternative Student Success (PASS). The partnership 
includes the juvenile's traditional customs applied by the Governor of 
the child's Pueblo, combined with the specialized services provided by 
the boarding school. The focus is to create a juvenile justice system 
which incorporates diversion or alternatives to incarceration that 
include traditional practices. Based on the 2014 school year, the 
school indicates that the recidivism rate has been reduced by 50 
percent as a result of this early intervention approach, otherwise 
known as PASS program. The BIA expects to fully implement this new 
justice system in 2016.
    The BIA agrees with colleagues at the Department of Justice that 
juvenile incarceration should be rare, fair and beneficial. In certain 
rare circumstances, incarceration is appropriate. The 2009 Recovery Act 
Correction Facilities on Tribal Lands Program provided a means to 
support the cultural traditions of rehabilitation of the incarcerated 
juvenile. One such juvenile rehabilitative center, is a 36-bed Youth 
Wellness and Renewal and Juvenile Detention Center (Center) which 
offers structured care for tribal youth law violators and their 
families with special emphasis on the youth. This facility provides 
adjudicated youth contemporary schooling and services as well as tribal 
disciplinary practices addressing all aspects of the Lakota culture to 
restore cultural, societal, kinship values and healthy families. This 
facility provides a sweat lodge and garden area. This Center is funded 
by the Bureau of Indian Affairs and was awarded a four-year OJJDP 
Tribal Juvenile Detention and Re-Entry Green Demonstration Grant, which 
has been successful. The grant provided valuable aspects of the 
juvenile wellness court such as an on-sight clinical psychologist and a 
highly effective educational program in which the Center and the local 
Community College developed and implemented environmentally green 
technologies that provided education and training opportunities for 
juveniles to create organic gardens, bee keeping, biodiesel fuels and 
renewable energy in solar and wind energy. Of the two tribal courts 
that were a part of the OJJDP Green Demonstration Grant, both provided 
alternative means for juveniles to become a part of the community and 
both were very effective. Unfortunately, both grants have expired and 
the courts do not presently have a funding option.
    Finally, the BIA in conjunction with OJJDP, has begun to create a 
comprehensive Model Juvenile Code designed to incorporate assessments 
which identify needs and provide services and solutions to address 
those needs by working with HHS and incorporating all types of services 
available. The hope is to create options for tribes to incorporate much 
needed services including specialized traditional remedies which 
address issues affecting Native youth juveniles in crisis. In 2015, the 
BIA will present a discussion Juvenile Model Code Draft aimed at 
creating options for a successful juvenile justice system and formal 
consultation with tribes is scheduled for 2016.
    Again, thank you for the opportunity to provide a statement. I am 
happy to answer any questions the Committee may have.

    The Chairman. Thank you so much for your participation. We 
look forward to the questioning.
    Our next witness is Ms. Addie C. Rolnick, Associate 
Professor, William S. Boyd School of Law, University of Nevada, 
Las Vegas, Nevada. Thank you so much for joining us. We look 
forward to your testimony.

STATEMENT OF ADDIE C. ROLNICK, ASSOCIATE PROFESSOR, WILLIAM S. 
            BOYD SCHOOL OF LAW, UNIVERSITY OF NEVADA

    Ms. Rolnick. Thank you, Mr. Chairman, Senator Tester and 
Senator Crapo. Thank you for inviting me here to address the 
Committee about this issue which, as you said, is really 
important but does not get nearly enough attention.
    I have pretty long remarks in the record, so I will try to 
limit it to a general overview here.
    It is clear that the current system is failing Native 
youth. There is widespread agreement about that and in 
particular, about three key ideas.
    The first is that Native youth are especially vulnerable. 
On almost every measure of the risk factors for delinquency, 
Native youth score very highly. They are disproportionately 
affected by poverty, poor educational outcomes, poor health 
outcomes and perhaps most worrisome, exposure to violence and 
trauma whether it is in the form of domestic violence, physical 
abuse or sexual abuse. They outscore all other youth almost in 
every factor. They are particularly vulnerable.
    The second idea is that incarceration does more harm than 
good. This is true across the board but particularly true for 
Native youth who are especially vulnerable and have experienced 
trauma. Incarcerating young people is expensive. It is not 
especially effective and can actually cause harm. This means 
that incarceration should be the last possible option, not a 
central feature in a well functioning juvenile justice system.
    Unfortunately, under the current arrangement, as we have 
heard, Native youth face some of the harshest sanctions for 
their risk behavior, even though they come into contact with 
the system for low level offenses and alcohol and substance 
abuse-related offenses more often than violent offenses. They 
end up with the harshest sanctions, are more likely to get 
incarcerated, more likely to be charged as adults and more 
likely to be removed from the home. Again, it is good that 
there is a consensus that this needs to change as well.
    The third idea is that the sort of tangled web of 
jurisdiction in which Federal, State and tribal courts all 
might have power over any particular case is something that is 
undermining tribal efforts to reform their systems. It is 
making it worse for the kids in them.
    There are three types of action that need to happen. First, 
take more kids out of Federal and State authority and put them 
under tribal authority. Second, increase the accountability of 
Federal and State juvenile systems and juvenile justice 
officials towards tribal communities and Native youth. Third, 
support tribes by providing stable, flexible and reliable 
financial resources, particularly resources that focus away 
from incarceration to alternatives and treatment.
    I have a whole range of recommendations in the written 
testimony but I want to focus on three here that would actually 
require congressional action.
    First is an amendment to the Federal Juvenile Delinquency 
Act. Right now, youth cannot be charged as juvenile delinquents 
under Federal law unless the Federal prosecutor goes to the 
State government first and gets a waiver of jurisdiction. Only 
then do they go to Federal court.
    This does not apply to tribes in the same way. Federal 
prosecutors can prosecute kids whether or not a tribe has 
prosecuted them and whether the tribe wants them to. This could 
be amended to require a deference to tribal jurisdiction so 
that the tribe would be able to waive jurisdiction if they want 
a kid prosecuted in Federal court but if they do not, then they 
would be able to prosecute them tribally.
    Second would be amendment to the Juvenile Justice and 
Delinquency Prevention Act, the main authorizing statute for 
funding of State delinquency programs. It is also the place 
where Federal policy is passed on to the States. Tribes do not 
really appear in that. It could be amended to add tribes to 
authorize funding to tribal governments and to encourage States 
to be more responsive to tribes in setting their funding needs 
and their policies.
    Third is to consider legislation that requires States, 
where Native children are under State jurisdiction, to defer to 
tribal jurisdiction. Where a case arises in Indian Country, the 
same thing could happen at the State level. State prosecutors 
could have to give tribal prosecutors the option before they 
proceed against the kids in State court. It could also be 
something that happens for youth under State jurisdiction 
outside of Indian Country. This is parallel to the Indian Child 
Welfare Act basically allowing for notice and intervention 
rights and possibly transfer rights for all Native you 
affiliate with a tribe that come into the State justice system.
    Those are just sort of the three key ideas. The sort of 
overall point is more tribal control, less incarceration, more 
healing and empowering tribes to do that.
    Thank you again for inviting me. I am happy to answer any 
questions about any specifics.
    [The prepared statement of Ms. Rolnick follows:]

Prepared Statement of Addie C. Rolnick, Associate Professor, William S. 
                Boyd School of Law, University of Nevada
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
Members of the Committee. Thank you for providing me the opportunity to 
testify today about the challenges to improving juvenile justice in 
Indian country and promising strategies for doing so. My name is Addie 
Rolnick. I am a law professor at the University of Nevada, Las Vegas. I 
have been engaged in research, advocacy, and institution building to 
improve juvenile justice in Indian country, and for Native youth 
elsewhere, for over a decade.
    My testimony today is based primarily on a 2008 policy paper that I 
co-authored with Neelum Arya of the Campaign for Youth Justice, A 
Tangled Web of Justice: American Indian and Alaska Native Youth in 
Federal, State, and Tribal Juvenile Justice Systems, and a forthcoming 
article I have written which will be published in the N.Y.U. Journal of 
Legislation and Public Policy in 2016, Untangling the Web: Juvenile 
Justice in Indian Country. I also draw on the findings and 
recommendations outlined in two recent special reports: the Indian Law 
and Order Commission's 2013 report, A Roadmap for Making Native America 
Safer, and the 2014 report of the Attorney General's Advisory Committee 
on American Indian/Alaska Native Children Exposed to Violence, Ending 
Violence so Children Can Thrive.
    Today I would like to share with you my perspectives on ways to 
improve juvenile justice in Indian country. From my research, I believe 
there is broad agreement on three over-arching themes, and I will 
address each one. First, American Indian and Alaska Native youth are 
vulnerable and overpunished under the current system. Second, juvenile 
justice policy experts largely agree that incarceration should be the 
intervention of last resort. Third, the overlapping authority of 
tribal, federal, and state governments makes it difficult to establish 
a consistent approach, which tends to undermine the authority of tribal 
governments and does not serve youth. I would like to spend my time 
describing each of these themes in more detail and providing specific 
recommendations for how Congress can act to improve juvenile justice in 
Indian country.
I. Native Youth Are Vulnerable and Over-Punished
    Compared to other groups and compared to the general youth 
population, American Indian and Alaska Native youth \1\ are at great 
risk in almost every area identified as a risk factor for involvement 
in the juvenile justice system. They are poorer. \2\ Many live in 
communities with few social safety net services. \3\ They are likely to 
face physical \4\ and mental \5\ health problems. They are more likely 
to drop out of school \6\ and less likely to attain higher education. 
\7\ They are likely to struggle with drug and alcohol use. \8\ They are 
likely to contemplate and commit suicide. \9\ They are likely to be 
abused \10\ or to be victims of violent crime. \11\
---------------------------------------------------------------------------
    \1\ The data sources relied upon in this testimony may vary in who 
is included in the population of Native youth. Where census data is 
used, some counts include only people who identify as American Indian 
or Alaska Native only, while others also include those who identify as 
American Indian or Alaska Native in combination with another race. 
Statistics on Native people as a racial group (including most that 
compare Native outcomes with those of other groups) include people who 
live on and off reservations. This population is much larger than the 
India country population; according to the 2010 census, only about one 
third of American Indian and Alaska Native people on reservations. 
Nationwide data may also obscure important differences between youth 
from different tribes, reservations, and states, and youth under the 
jurisdiction of tribal, federal, and state governments. As described in 
my testimony, further research on specific sub-populations is an 
important piece of improvement efforts.
    \2\ In 2007-2011, the AIAN-only poverty rate was 27 percent, 
compared to 14.3 percent of the total population and 11.6 percent of 
whites. Suzanne Macartney, Alemayehu Bishaw, and Kayla Fontenot, 
Poverty Rates for Selected Detailed Race and Hispanic Groups by State 
and Place: 2007-2011 (February 2013): ACSBR/11-17.
    \3\ Neelum Arya & Addie C. Rolnick, A Tangled Web of Justice: 
American Indian and Alaska Native Youth in Federal, State, and Tribal 
Justice Systems (Campaign for Youth Justice 2008), 14.
    \4\ A Tangled Web, 4.
    \5\ A Tangled Web, 5; Indian Law and Order Commission, A Roadmap 
for Making Native American Safer: Report to the President & Congress of 
the United States (2013), 151.
    \6\ In the 2011-12 school year, 68 percent of AIAN students 
graduated, compared to 81 percent of the total population. U.S. 
Department of Education, National Center for Education Statistics, 
Common Core of Data (CCD), NCES Common Core of Data State Dropout and 
Graduation Rate Data File, School Year 2011-12, Preliminary Version 1a: 
http://nces.ed.gov/ccd/tables/AFGR0812.asp. In 2012, 21.2 percent of 
AI/AN-only people over the age of 25 lacked a high school diploma/GED, 
compared with 13.6 percent of the total over-25 population. U.S Census 
Bureau, 2012 American Community Survey: http://factfinder2.census.gov/
bkmk/table/1.0/en/ACS/12_1YR/S0201//popgroup006.
    \7\ In 2012, 13.5 percent of AI/AN-only people over the age of 25 
had a bachelor's degree, compared to 29.1 percent of the general 
population. U.S. Census Bureau, 2012 American Community Survey: http://
factfinder2.census.gov/bkmk/table/1.0/en/ACS/12_1YR/S0201//popgroup006.
    \8\ In 2012, AI/AN-only people over the age of 12 experienced the 
highest rate of substance abuse, at 21.8 percent. SAMHSA, Center for 
Behavioral Health Statistics and Quality, National Survey on Drug Use 
and Health, 2012. Table 5.5B.
    \9\ Compared to the general population, those served by the Indian 
Health Service are 60 percent more likely to die of suicide. http://
www.ihs.gov/newsroom/factsheets/disparities/. Using 2011 statistics for 
people younger than 25 years, the AI/AN suicide rate was 13.06/100k, 
which was more than double the white rate (6.11/100k), almost quadruple 
the black rate (3.31/100k), and more than quadruple the Asian rate 
(2.85/100k). Centers for Disease Control and Prevention, National 
Center for Injury Prevention and Control, WISQARS dataset.
    \10\ In 2012, the rate of child abuse among AIAN-only victims was 
12.4/k, compared to 8.0/k for white victims. This document is based on 
reports from state child protective services, and does not include 
child abuse cases handled exclusively by tribal child protective 
services, so it is understated. United States Children's Bureau, Child 
Maltreatment 2012 (2013), available at http://www.acf.hhs.gov/programs/
cb/resource/child-maltreatment-2012.
    \11\ In 2012, the violent victimization rate for American Indians 
and Alaska Natives was 46.9/k. This was 1.37 times the black rate 
(34.2/k), 1.86 times the white rate (25.2/k), and 2.86 times the API 
rate (16.4/k). Criminal Victimization, 2012, by Jennifer Truman, Ph.D., 
Lynn Langton, Ph.D., and Michael Planty, Ph.D., Bureau of Justice 
Statistics. October 2013, NCJ 243389. Table 7 (excluding those who 
identify as mixed race).
---------------------------------------------------------------------------
    Both the Commission report and the Attorney General's Advisory 
Committee Report emphasize the alarming rates at which Native youth are 
exposed to violence (including being victims of abuse, witnessing 
domestic violence, and being exposed to violence in their communities), 
placing them at a greater risk of involvement in the juvenile justice 
system. \12\ The reports link the present trauma with the impact of 
historical traumas experienced by Native communities, which included 
forced removal from homelands, targeted killing, wars, disease 
outbreaks, brutal boarding schools designed to forcibly disconnect 
Native children from their cultures, and family ties broken or damaged 
through adoption and relocation. \13\ While more research is clearly 
needed on Native youth, especially research that identifies differences 
in sub-populations, the picture based on the available data is clear: 
Native youth are extremely vulnerable.
---------------------------------------------------------------------------
    \12\ Roadmap, 151-153; Attorney General's Advisory Committee on 
American Indian/Alaska Native Youth Exposed to Violence, Ending 
Violence So Children Can Thrive (2014), 37-39.
    \13\ Roadmap, 149; Ending Violence, 39-40, 111.
---------------------------------------------------------------------------
    The flip side of their high risk factors is that Native youth 
disproportionately experience the harshest sanctions for their 
misbehavior. They are over-represented in foster care, \14\ in arrests 
for alcohol and drug offenses, \15\ in out of home delinquency 
placements, \16\ in secure detention, \17\ and among youth prosecuted 
in the adult criminal system. \18\ Both reports highlight this contrast 
between the incredible vulnerability of Native youth and the overly 
harsh sanctions they are subjected to once they enter the legal system. 
\19\ As the Advisory Committee found, the widespread use of 
incarceration for children with such high rates of trauma is ``another 
of infliction of violence on these children.'' \20\
---------------------------------------------------------------------------
    \14\ National Indian Child Welfare Association and The Pew 
Charitable Trusts, Time for Reform: A Matter of Justice for American 
Indian and Alaskan Native Children (2007), 5.
    \15\ A Tangled Web, 8.
    \16\ Id.
    \17\ Id.
    \18\ Id.
    \19\ Roadmap, 166; Ending Violence, 110-113.
    \20\ Ending Violence, 112.
---------------------------------------------------------------------------
II. Incarceration Should Be a Last Resort
    The Law and Order Commission and the Attorney General's Advisory 
Committee each recommended that incarceration should be used only as a 
last resort. \21\ These recommendations reflect the widespread 
recognition among juvenile justice policymakers that ``a growing body 
of research demonstrates that the current system of intensive oversight 
and placement of youth in large prison-like facilities has, at best, 
only a modest positive effect on recidivism, and can actually have 
negative effects, while therapeutic programs focused on youth 
development have very positive effects, even for youth who commit 
serious offenses.'' \22\ Juvenile justice policymakers have presented 
the State of Missouri, which replaced all of its training schools and 
large incarceration facilities with smaller, regional therapeutic 
facilities, as a model for improving juvenile justice. \23\ Other 
states have reduced their populations of incarcerated youth by 
diverting non-dangerous offenders out of the system entirely. \24\ Of 
the ten guiding principles identified by the Youth Transition Funders 
Group, six refer directly to the idea that youth should be diverted out 
of the legal system where possible and, for those in the system, 
smaller, community-based rehabilitation and treatment programs are 
preferable to massive, faraway institutions. \25\ A 2011 report by the 
Annie E. Casey Foundation presents a compelling case that incarceration 
is a bad policy for juvenile offenders because it is ineffective, 
unnecessary, and dangerous. According to the report, incarceration has 
little or no public safety benefit, wastes money, harms youth, and does 
not reduce recidivism. \26\
---------------------------------------------------------------------------
    \21\ Roadmap, 149.
    \22\ MacArthur Foundation, Models for Change, Because Kids Are 
Different: Five Opportunities for Reforming the Juvenile Justice System 
(2014).
    \23\ Richard A. Mendel, The Missouri Model (Annie E. Casey 
Foundation 2010)
    \24\ Id. at 5.
    \25\ Youth Transition Funders Group, Juvenile Justice Reform: A 
Blueprint (2012), at 15.
    \26\ Annie E. Casey Foundation, No Place for Kids: The Case for 
Reducing Juvenile Incarceration (2011).
---------------------------------------------------------------------------
    While incarceration should be a last resort for all youth, it is an 
especially bad fit for Native youth. Incarceration should not be used 
as a remedy for delinquency caused by trauma. The Commission Report 
describes the current incarceration-based juvenile justice system in 
Indian country as ``compromis[ing] traumatized, vulnerable young lives, 
ruptur[ing] Native families, and weaken[ing] Tribal communities.'' \27\ 
Instead of a focus on incarceration, the juvenile justice system in 
Indian country should focus on meeting the needs of offenders with 
trauma, mental health, and substance abuse issues. It should 
incorporate trauma and mental health screening and services, as well as 
alcohol and drug treatment services. Acknowledging historical trauma 
and its impact on family and child well being, it should strive to keep 
youth connected to their families and communities wherever possible, 
rather than sending youth to faraway states or non-Native systems. It 
should avoid the military-style discipline that was a hallmark of 
assimilative boarding schools and is especially damaging to youth who 
have experienced abuse and trauma. It should employ incarceration as 
the last possible option and only when it is required for public 
safety. Given the infrequent occurrence of serious violent crimes among 
Native youth, some tribal communities may not need to use it at all.
---------------------------------------------------------------------------
    \27\ Roadmap, 159.
---------------------------------------------------------------------------
III. The Tangled Web of Jurisdiction Hurts Native Youth
    Many Native youth who commit offenses within Indian country are 
prosecuted by outside governments, without regard to the preferences of 
the tribal government. As the Law and Order Commission found, ``[d]ata 
show that Federal and State juvenile justice systems take Indian 
children, who are the least well, and make them the most incarcerated. 
When they do incarcerate them, it is often far from their homes, 
diminishing prospects for positive contacts with their communities. 
Furthermore, conditions of detention often contribute to the very 
trauma that American Indian and Alaska Native children experience.'' 
\28\
---------------------------------------------------------------------------
    \28\ Roadmap, 166-167.
---------------------------------------------------------------------------
    Youth prosecuted federally encounter a system that was not designed 
for Native people or for juveniles. The Federal Government exercises 
jurisdiction under the Federal Juvenile Delinquency Act. \29\ This 
jurisdiction extends to juveniles whose acts would have been covered by 
either the Major Crimes Act \30\ or the Indian Country Crimes Act \31\ 
if they were adults. Tribes have concurrent jurisdiction over the same 
juveniles, but federal law does not require prosecutors to defer to 
tribes. Non-Native youth are rarely prosecuted in the federal system 
because federal juvenile jurisdiction is an option of last resort for 
when juveniles who violate federal laws cannot be turned over to state 
juvenile justice systems. Indian country juveniles, on the other hand, 
are prosecuted federally for offenses that would be handled by state 
juvenile courts if they occurred elsewhere.
---------------------------------------------------------------------------
    \29\ 18 U.S.C.   5031-5042.
    \30\ 18 U.S.C.  1152.
    \31\ 18 U.S.C.  1153.
---------------------------------------------------------------------------
    The federal system, however, does not have separate juvenile court 
as states and tribes do. \32\ When young offenders face federal 
prosecution, they are pulled into a criminal justice system that is 
staffed by personnel who do not specialize in juvenile justice and 
processed under laws written with adult criminals in mind. Youth in the 
federal system are prosecuted by U.S. Attorneys and placed in the 
custody of the Bureau of Prisons. Because most of the offenders handled 
by these two agencies are adults, the agency-level policy is focused 
primarily on adult offenders, and the officials are more likely to have 
expertise in adult crime and adult detention. The Office of the U.S. 
Attorney does not have a juvenile division; juvenile prosecutions are 
supervised by the Organized Crime and Gang Section of the Criminal 
Division. \33\ The Bureau of Prisons does not have a juvenile division, 
nor does it have any designated juvenile facilities; juveniles are 
instead housed in rented beds in state, local, and private facilities 
through corrections contracts. \34\ Youth prosecuted in the federal 
system spend more time locked up because federal sentences are longer 
and the federal system does not include diversion, parole, and other 
services. \35\
---------------------------------------------------------------------------
    \32\ See, e.g., William Adams and Julie Samuels, Tribal Youth in 
the Federal Justice System (Urban Institute: Justice Policy Center, 
2011), vi (``There is no federal juvenile justice system, and juveniles 
account for a very small proportion of all federal prosecutions handled 
by U.S. Attorneys across the country.''); U.S. Dep't of Justice, Bureau 
of Justice Statistics, Juvenile Delinquents in the Federal Criminal 
Justice System (1997) (``Unlike State-level criminal justice systems, 
the Federal system does not have a separate juvenile justice 
component.'').
    \33\ U.S. Attorney's Manual, Title 9, Section 8.001.
    \34\ Tribal Youth in the Federal System, 8-9; see http://
www.bop.gov/business/ccc_contracting.jsp. Although the Bureau of 
Prisons website contemplates contracts with tribal facilities as well, 
no tribal facilities are listed in the agency's list of contract 
facilities. Contract facilities are often far from a young person's 
home community. See Roadmap, 155, 160; Ending Violence, 120.
    \35\ A Tangled Web, 24-26; Roadmap, 155, 160; Ending Violence, 120.
---------------------------------------------------------------------------
    Native youth come under state jurisdiction for two reasons. First, 
some state governments have jurisdiction over Indian country under 
Public Law 280 and similar laws. \36\ These states are not required to 
consult with tribal governments on any matter related to Indian country 
law enforcement, even though the tribes generally have concurrent 
jurisdiction over juvenile offenders. Although some states voluntarily 
communicate with tribes today, they have historically chosen not to do 
so. Tribes in these states are not usually invited to the table when 
the states make large-scale juvenile justice policy decisions or 
determine how the state's financial resources will be allocated. 
Moreover, tribal officials who wish to be involved in particular cases 
may not be permitted to intervene.
---------------------------------------------------------------------------
    \36\ Act of Aug. 15, 1963, 67 Stat. 588, codified as amended at 18 
U.S.C.  1162, 25 U.S.C.   1321-1326. Although Public Law 280 is the 
major statute granting states juvenile delinquency jurisdiction over 
Indian country, some tribes are subject to state jurisdiction as a 
result of specific legislation, such as the laws implementing land 
claims settlements for many tribes in New England.
---------------------------------------------------------------------------
    Second, Native youth who commit offenses outside Indian country are 
prosecuted in state court. While this hearing is concerning with 
juvenile justice in Indian country, it is important to note that more 
than half of all American Indian and Alaska Native youth live outside 
Indian country and are subject to state jurisdiction for offenses 
committed there. Unlike in the child welfare context, where states are 
required to involve tribes when a tribal child comes into state court, 
no federal law requires states to consult with tribes at all in 
delinquency cases involving Native youth. \37\ With very few 
exceptions, state laws do not include special procedures or 
interventions for American Indian and Alaska Native youth. This means 
that tribes have little control over or input into what happens to 
Native youth under state jurisdiction.
---------------------------------------------------------------------------
    \37\ The Indian Child Welfare Act does not apply to delinquency 
proceedings, but it does apply to juveniles charged with status 
offenses in state courts who are facing placement outside the home. 
This requirement, however, is under-enforced. See Coalition for 
Juvenile Justice & Tribal Law and Policy Institute, American Indian/
Alaska Native Youth & Status Offense Disparities: A Call for Tribal 
Initiatives, Coordination & Federal Funding (2015), 5.
---------------------------------------------------------------------------
    Where Native youth are subject to state jurisdiction, they are at 
least part of a system designed specifically for juveniles, as all 
states administer a separate juvenile system. However, the experiences 
of Native youth are determined by state policy, which is not usually 
formulated with Native youth in mind. This approach has not led to 
positive outcomes for Native youth. In many states, including Alaska, 
Minnesota, Montana, Oklahoma, North Dakota, South Dakota, Washington, 
and Wisconsin, there is evidence that American Indian and Alaska Native 
youth are less likely than other youth to be diverted out of the 
system, more likely to be incarcerated, and more likely to be 
transferred to adult court. \38\
---------------------------------------------------------------------------
    \38\ See A Tangled Web, 21-24.
---------------------------------------------------------------------------
    For these reasons, the Indian Law and Order Commission recommended 
removing Native children from federal and state jurisdiction whenever 
possible with the goal of ``releasing Tribes from dysfunctional Federal 
and State controls and empowering them to provide locally accountable, 
culturally informed self-government.'' \39\
---------------------------------------------------------------------------
    \39\ Roadmap, 159.
---------------------------------------------------------------------------
IV. Recommendations
    There are many factors that influence a government's choices about 
how to address juvenile delinquency in a community. Juvenile justice 
systems serve the twin needs of community protection/accountability and 
treatment/rehabilitation of youth. The first factor to consider, then, 
is what kinds of offenses the youth in that community are committing, 
and what experiences contribute to their delinquency. While this answer 
will vary among communities, available data suggests that most Native 
youth come into contact with the system after committing non-violent 
offenses and drug- and alcohol-related offenses. \40\ Likewise, the 
pervasive influence of personal and historical trauma in the lives of 
Native youth highlights the importance of a system built around trauma-
informed care.
---------------------------------------------------------------------------
    \40\ In 2013, only about a quarter of the youth held in tribal or 
BIA facilities were being held for violent offenses. U.S. Dep't of 
Justice, Bureau of Justice Statistics, Jails in Indian Country, 2013. 
From 2000-2006 the top five offenses for which Native youth were 
arrested nationally were larceny, liquor law violations, disorderly 
conduct, running away, and drug abuse violation. A Tangled Web, 8-9.
---------------------------------------------------------------------------
    Another important factor is the traditional beliefs of that 
community regarding justice and childrearing. Tribal justice systems 
that incorporate tribal culture and tradition tend to be more focused 
on restorative justice, community well being and treatment and healing, 
and less focused on adversarial process and individualized punishment. 
\41\ In addition to culturally specific beliefs about justice, a tribal 
system might also be guided by culturally specific beliefs about youth. 
For many tribes, these include beliefs about the importance of respect 
and guidance for youth who have gotten into trouble. \42\ All of these 
factors suggest that, given the freedom to design a juvenile justice 
system appropriate for their community, many tribal governments would 
choose one that emphasized treatment, traditional approaches, and 
community-based intervention over incarceration and punishment.
---------------------------------------------------------------------------
    \41\ Ada Pecos Melton, Indigenous Justice Systems and Tribal 
Society (American Indian Development Associates YEAR): http://
www.aidainc.net/Publications/ij_systems.htm
    \42\ Addie C. Rolnick, Developing a Juvenile Justice System in the 
Native Village of Barrow, Alaska (unpublished M.A. thesis, 2007).
---------------------------------------------------------------------------
    A third factor that may influence community choices is the 
resources that are already available and the existence of other policy 
priorities. Tribal communities will differ widely in this regard, but 
many rural reservations lack access to the kind of extensive community-
based services that non-tribal jurisdictions may rely on for early 
intervention and diversion programming, such as Boys and Girls Clubs, 
scouting organizations, and church groups. Similarly, many tribal 
communities are underserved by mental health professionals, so they may 
not have counselors, psychologists, psychiatrists, outpatient treatment 
programs, or hospitals equipped to serve young people. Because these 
ancillary services may not exist in tribal communities, it is 
especially important for tribes to be able to invest in youth 
development, mental health, and treatment programs as part of their 
effort to create a responsive juvenile justice system. Similarly, 
tribal governments with a wide range of financial needs may wish to 
avoid overly expensive measures for addressing delinquency, such as 
building secure detention facilities. For tribes, jurisdictional 
realities present an additional complication. Whether a tribe's efforts 
to address delinquency are respected by federal and/or state 
authorities and whether the tribe believes those authorities are 
providing effective services will likely influence how the tribe 
chooses to invest its resources.
    While the outcome of this calculus will be different for each 
tribal community, a tribally driven process in important. A tribe 
should be able to assess the needs of its youth, the risk to community 
members, available resources, and areas of need, and design a system to 
meet those needs. A system designed with Native youth in mind and 
reflective of tribal traditions would likely focus less on expensive 
incarceration facilities and more on early intervention, treatment and 
care than the current system does. However, tribal control is important 
regardless of whether the tribe's policy choices reflect the current 
trend away from incarceration and toward treatment: policy choices that 
come from inside are more easily changed than policy choices imposed 
from outside, and the tribal government is accountable to the community 
(including the youth), who can help ensure than an ineffective system 
will be changed.
    Once the tribal government has set the direction for its system, it 
should be able to partner with other governments to supplement these 
efforts. Most Native youth should be prosecuted in tribal systems, with 
federal and state jurisdiction supplementing, rather than supplanting, 
tribal authority. Grant and formula funding should be plentiful and 
flexible enough to assist tribes in building a system that meets 
community needs.
    The current system works very differently. Federal and state 
authority may take primacy over tribal authority. Many youth end up 
under federal or state jurisdiction even thought they would be better 
served by remaining in the tribal system. Tribes' decisions about what 
how to address juvenile delinquency are cabined by limited funding and 
overly restrictive rules on how that money can be used, rules that 
often reflect non-Native policy choices. As a result, the juvenile 
justice system in Indian country is heavily skewed toward 
incarceration. There are more than 30 tribal or BIA juvenile 
facilities, but there were less than 200 young people incarcerated in 
those facilities in 2013; that is one facility for every seven youth. 
\43\ By contrast, tribes struggle to find funding to create and sustain 
early intervention programs and detention alternatives. Some of the 
young people locked in these facilities probably do not need to be 
there, but they are incarcerated because of a lack of alternatives and 
the pressure to fill the facilities once they are opened.
---------------------------------------------------------------------------
    \43\ It is difficult to obtain an exact count for the number of 
facilities or the number of youth incarcerated in them. This estimate 
is based on the Department of Justice's Jails in Indian Country data 
with additional information obtained from the Association on American 
Indian Affairs.
---------------------------------------------------------------------------
    Congress can help repair this broken system by (1) increasing 
tribal authority over American Indian and Alaska Native youth who 
commit delinquent offenses and (2) supporting tribes' efforts to build 
systems that reflect community needs, paying special attention to the 
need to invest in treatment and alternatives to incarceration. The 
following are specific recommendations for how to do this.
A. Reserve Federal Prosecution for Exceptional Circumstances by 
        Amending the 
        Federal Juvenile Delinquency Act to Treat Tribes Like States
    Amending federal law to recalibrate the balance of power between 
tribes and outside authorities is an important part of any reform 
effort. While it may be impracticable to remove federal and state 
jurisdiction from the equation entirely, federal law should include a 
legal requirement of deference to tribal jurisdiction, giving each 
tribe maximum freedom to design and control a juvenile justice system 
that meets the needs of its youth.
    For tribes subject to federal jurisdiction, the solution is 
remarkably simple: the Federal Juvenile Delinquency Act (FJDA) should 
be amended to require federal prosecutors to obtain a waiver of tribal 
jurisdiction before prosecuting a juvenile for an Indian country 
offense. Under the procedure set forth under current law, a juvenile 
may not be proceeded against in federal court until the Attorney 
General certifies that the state lacks or is unwilling to take 
jurisdiction over the case, the state does not have adequate programs 
or services for the juvenile in question, the juvenile has committed a 
serious violent offense or a drug offense, or there is a substantial 
federal interest involved. \44\ Despite the strong preference for state 
jurisdiction, the law does not require the Attorney General to defer to 
tribal jurisdiction. \45\ Instead, the certification requirement is met 
in Indian country cases by a certification that the state lacks 
jurisdiction over the offender because the offenses occurred in Indian 
country.
---------------------------------------------------------------------------
    \44\ 18 U.S.C.  5032. There is an exception for offenses that 
carry a maximum term of six months or less when committed with the 
special maritime or territorial jurisdiction of the United States.
    \45\ A Tangled Web, 27.
---------------------------------------------------------------------------
    Amending the FJDA to require a waiver of tribal jurisdiction is the 
simplest way to ensure that Native youth are prosecuted in federal 
court only when the tribe consents. The Law and Order Commission report 
recommended more far-reaching changes, such as allowing tribes to opt 
out of federal jurisdiction entirely. \46\ Amending the FJDA would 
accomplish the same result, but it would preserve federal jurisdiction 
in cases where a tribe wished to waive its jurisdiction in favor of 
federal prosecution. It would also bring the FJDA in line with many 
other legal regimes in which tribes are treated the same as states.
---------------------------------------------------------------------------
    \46\ Roadmap, 159-161, 170-171.
---------------------------------------------------------------------------
B. Require States with Jurisdiction Over Indian Country to Defer to 
        Tribal 
        Prosecution
    For tribes subject to state jurisdiction, a clean legislative 
solution is harder to identify. Tribes in Public Law 280 states are now 
able request that the federal government reassume jurisdiction. \47\ 
However, many tribes remain under state jurisdiction pursuant to Public 
Law 280 and pursuant to other laws. In order to ensure state/tribal 
cooperation in those areas where state/tribal concurrent jurisdiction 
continues, state governments with jurisdiction over Indian country 
should be required to defer to tribal prosecution unless the tribe 
waives jurisdiction and asks the state to proceed. Congress should 
consider amending Public Law 280 and/or passing independent legislation 
to require deference to tribal juvenile jurisdiction for all cases 
arising in Indian country (further discussed in Recommendation D).
---------------------------------------------------------------------------
    \47\ 18 U.S.C.  1162(d).
---------------------------------------------------------------------------
C. Improve the Treatment of Native Youth in the Federal System
    For those youth who do remain in the custody of the Bureau of 
Prisons, policy changes should be made to encourage transparency and to 
better meet the unique needs of Native youth. The Bureau should be 
required to consult with Tribes to formulate policies specific to 
Native youth, to adhere to those policies, and to make information on 
offenses, outcomes, and policies available to the public. For example, 
the Bureau might consider contracting with tribal or BIA-run juvenile 
facilities to house Native youth whenever possible. Existing policies 
that require youth to be housed as close as possible to their home 
communities could be more strongly enforced, and additional changes may 
be considered to support continued contact between the young person and 
his or her tribal community. Improving community-based options and 
alternatives to incarceration for all juveniles in the federal system 
would also benefit Native youth.
    One important aspect of this improvement includes review of how 
Native juveniles are affected by the Federal Sentencing Guidelines. In 
general, juvenile sentences differ from adult sentences because the 
decision to incarcerate may be based on a need for rehabilitation or 
treatment, as opposed to a term-of-years punishment. Juvenile 
jurisdiction typically ends at age 18 or age 21, so young offenders 
cannot necessarily be sentenced to long terms of incarceration. 
Confidentiality rules may also affect how prior juvenile adjudications 
are counted in terms of criminal history. Careful attention should be 
paid to how the Federal Sentencing Guidelines are applied to Native 
juveniles and whether their application leads to negative outcomes (for 
example, longer incarceration terms). The U.S. Sentencing Commission's 
Tribal Issues Advisory Group has appointed a subcommittee to study 
juvenile issues. The recommendations of this subcommittee should inform 
potential changes to federal law and policy.
D. Require States to Consult with Tribes Regarding Funding Priorities 
        and Specific Cases Involving Tribal Youth
    For Native youth who remain under state jurisdiction, including 
tribes who remain subject to jurisdictional laws like Public Law 280 
and all youth who reside or commit offenses off-reservation, it is 
critical to ensure that states consider tribes and Native youth at the 
level of both policy and individual cases. States with jurisdiction 
over Indian country should be required to create a formal avenue for 
tribal input and consultation on funding and policy decisions affecting 
Native youth. This could be accomplished through amendments to the 
Juvenile Justice and Delinquency Prevention Act (JJDPA). The JJDPA 
authorizes federal funding for state juvenile justice systems. Through 
the Act, Congress has long required states to adhere to certain 
requirements in order to receive funding. Congress could add a 
requirement that states with Indian country jurisdiction consult with 
affected tribes.
    State juvenile justice officials should also be required to notify, 
consult with, and defer to tribal officials in individual cases 
involving youth from that tribe. At minimum, this should apply to cases 
arising in Indian country. Congress should consider, however, extending 
the notification requirement to all tribal youth whether or not the 
cases arises in Indian country. I support the recommendation of the Law 
and Order Commission and the Attorney General's Advisory Committee that 
Congress extend the Indian Child Welfare Act to require notification 
and transfer of juvenile delinquency cases to the child's tribe. \48\ I 
am aware of only one state, New Mexico, with a state law requiring 
tribal notification in delinquency proceedings. The National Indian 
Child Welfare Association and the Association on American Indian 
Affairs are currently studying the implementation of that law, and 
their finding should inform any federal notification law. \49\
---------------------------------------------------------------------------
    \48\ Roadmap, 173 (recommending tribal notice, intervention, and 
transfer rights for cases arising in Indian country and tribal notice 
and intervention rights for cases arising elsewhere); Ending Violence, 
122-124 (same).
    \49\ See National Indian Child Welfare Association, Tribal 
Notification Research Findings Shared with NM Partners and Constituents 
(Spring 2015), available at:http://www.nicwa.org/newsletter/Tribal-
Notification-Research-Findings-Sharedwith-NM-Partners.asp.
---------------------------------------------------------------------------
E. Amend the Juvenile Justice and Delinquency Prevention Act to 
        Permanently 
        Authorize Tribal Juvenile Justice Funding
    As the role of tribal juvenile justice systems is strengthened, the 
resources that now follow Native youth into federal and state systems 
must be redirected to tribal governments. The JJDPA authorizes federal 
funding for state juvenile justice systems, including the Juvenile 
Accountability Block Grant. Current law does not authorize direct 
funding to tribes. As described earlier, it also does not require 
states to consult with tribes in determining how to allocate state 
funding. The JJDPA should be amended to authorize a tribal set-aside, 
allowing tribes to receive direct block grant funding under the law. 
While it is unlikely that a tribal set-aside at current funding levels 
would increase funding to tribes over what is now provided through the 
Tribal Youth Program, amending the JJDPA would permanently authorize 
this funding. Like the amendment to the FJDA outlined earlier, adding 
tribes to the JJDPA would bring this legislation in line with other 
laws and ensure that tribes are treated as sovereigns.
F. Appoint an Advisory Committee Composed of Individuals with Expertise 
        in 
        Juvenile Justice to Provide Input into BIA, DOJ, and IHS 
        Funding and Policy 
        Guidance
    Building effective juvenile justice systems requires resources and 
expertise in law enforcement, education, rehabilitation, detention, and 
mental health treatment. Under the current system, funding designated 
for each of these areas comes from a different federal agency. Within 
each agency, funding is further divided into accounts to fund different 
activities. For example, courts and detention are funded through 
separate accounts within the Bureau of Indian Affairs budget. Funding 
is not easily reprogrammed between accounts. Moreover, some activities 
receive recurring funding, but funding for other activities is 
available only through competitive grants that must be renewed 
periodically. As a result, a tribe seeking to improve its juvenile 
justice system must navigate multiple accounts, several federal 
agencies, and targeted grant opportunities that may change according to 
shifting agency policy.
    This funding structure is a primary reason why incarceration is 
such a key feature in tribal juvenile justice systems; detention 
facility funding has been prioritized over funding for alternatives, 
and it is difficult to reprogram unused detention funding to a non-
detention activity. This funding structure must be refashioned so that 
tribes receive as much funding as possible in the form of flexible 
block grants. \50\ The Long Term Plan to Build and Enhance Tribal 
Justice Systems issued in 2011 by the Department of the Interior and 
the Department of Justice was an important step in the direction of 
inter-agency collaboration, but more drastic reform is needed. In 
addition, any plan that does not also incorporate health, mental health 
and education services will be of limited help in improving tribal 
juvenile justice systems. Accomplishing the necessary flexibility 
across agencies will likely be difficult, and an advisory committee 
with knowledge of juvenile justice issues could assist in reforming the 
structure. The advisory committee could also make recommendations 
regarding technical assistance providers who might be able to better 
support tribes in their efforts to reduce incarceration.
---------------------------------------------------------------------------
    \50\ The Commission and Advisory Committee reports each recommend 
similar changes to the funding structure for juvenile justice. Roadmap, 
165; Ending Violence, 114-117.
---------------------------------------------------------------------------
G. Fund Research to Collect Data on Native Youth in Tribal, Federal, 
        and State 
        Systems
    The recommendations here reflect a review of available data on 
Native youth under tribal, federal, and state jurisdiction, but much 
remains unknown. There are at least three primary areas of inquiry that 
require further study.
    Facilities and Services. There are approximately 30 juvenile 
facilities run by tribes or the BIA, but a comprehensive assessment of 
these facilities, including how they are funded, who is housed in them, 
and how the facility is run, is lacking. Because little is known about 
tribal and BIA facilities, it is impossible to test the assumption that 
Native youth fare better in tribal systems, or to recommend 
improvements to those systems. Delinquent youth with substance abuse or 
mental health issues may also be referred to health facilities, and 
little information is available regarding the kinds of services offered 
and how effective they are. With regard to youth in federal and state 
facilities, research is needed to determine where tribal youth are 
housed and what services they receive.
    Youth and offenses characteristics. Building on the research that 
has been done regarding risk factors and trauma, more research is 
needed to examine the experiences and backgrounds of Native youth who 
enter the juvenile justice system, to track the offenses they are 
charged with and to examine the characteristics of the offenses. Such 
research could help answer questions about the role of mental health 
and substance abuse in Native juvenile delinquency, gender differences 
in offense patterns, and whether Native youth are charged with more 
severe offenses for behavior that could have been charged less 
severely. Research that focuses on specific sub-populations, such as 
Indian country youth or youth charged in the federal system, is 
especially important.
    Best Practices for Native Youth. A primary goal of this hearing is 
to uncover ``promising approaches'' for addressing juvenile delinquency 
among Native youth. Unfortunately, it is nearly impossible to give an 
evidence-based recommendation about whether any particular program 
works well for Native youth because these programs have been largely 
unstudied. Some programs seem promising, such as the Annie E. Casey 
Foundation's pilot Tribal Juvenile Detention Alternatives project with 
the Mississippi Band of Choctaw, the SouthEast Alaska Regional Health 
Corporation's Raven's Way drug and alcohol treatment program, and New 
Mexico's tribal notification law. These and other promising programs 
should be studied to see whether and how they work for Native youth and 
in Native communities.
V. Conclusion
    I thank you again for the opportunity to provide testimony on this 
important matter. Much remains to be done, but most stakeholders agree 
on the core ideas: Native youth who become involved in the juvenile 
justice system are vulnerable. Any system that encounters them should 
assume they have experienced trauma and strive to give them the 
protection and treatment they deserve. Tribal governments are trying to 
create humane and effective juvenile justice systems in which their 
children will be treated better than they have been at the hands of 
federal and state governments. Congress should do everything in its 
power to help tribes do this.

        The attachment--policy brief ``A tangled Web of Justice'' has 
        been retained in the Committee files and can be found at: 
        http://www.campaignforyouthjustice.org/documents/
        CFYJPB_TangledJustice.pdf.

    The Chairman. Thank you very much, Professor Rolnick. We 
appreciate your comments.
    Next, we will hear from Ms. Carla Knapp, National Director 
of Native Services, Boys and Girls Clubs of America from Ft. 
Myers, Florida. Thank you for being here today.

STATEMENT OF CARLA KNAPP, NATIONAL DIRECTOR OF NATIVE SERVICES, 
                 BOYS AND GIRLS CLUB OF AMERICA

    Ms. Knapp. Good afternoon. Kwey, hello.
    As you said, my name is Carla Knapp, the National Director 
of Native Services for Boys and Girls Club of America.
    I am also a tribal member of the Penobscot Indian Nation 
and the proud mother of two Native children, a 25 year old son 
in the U.S. Air Force and a five year old daughter. I am 
extremely honored to be here today, to serve in this role and 
represent Native youth across the Nation.
    In recognition of the extraordinary and unique challenges 
facing our Native youth and our Native communities, including 
the enormous barriers that stand in the way of success for 
Native youth, Boys and Girls Clubs of America chartered its 
first Club in 1992.
    Today, 23 years later, Boys and Girls Clubs in Indian 
Country is a true success story. We are the Nation's largest 
Native youth-serving agency, with 179 Native clubs serving some 
82,000 youth in 24 States, representing some 90 different 
American Indian and Alaska Native communities. With much 
evidence existing pertaining to the impact of Boys and Girls 
Club experiences, we strive to consistently measure, evaluate 
and improve the experiences and outcomes achieved by Club 
members.
    Boys and Girls Club of America has established the National 
Youth Outcome Initiative. This collects comprehensive data on 
the experiences and outcomes of Boys and Girls Club members in 
a consistent manner using a common set of research informed 
indicators and measures.
    Following are a few examples I have found related to the 
impact of the Club experience for Native youth. You will also 
find more in the written testimony.
    In regard to reducing juvenile delinquency, research over 
time clearly indicates that youth who become involved with 
delinquency and illegal activities have a high rate of dropping 
out of high school and concurrently diminishing their future 
prospects in terms of not continuing their education, achieving 
a promising career or earning a decent living.
    Our findings among teenage Native Club members who 
participated in Boys and Girls Club national outcome surveys in 
the spring of 2015 was 91 percent reported never being arrested 
in the past year.
    Other proven result evaluations have shown that public 
housing communities where Boys and Girls Clubs implement Boys 
and Girls Clubs of America's Smart Moves Program, there are 13 
percent fewer juvenile crimes, 22 percent less drug activity 
and a 25 percent less crack cocaine presence than similar sites 
without Boys and Girls Clubs.
    As mentioned earlier, Boys and Girls Clubs grew from one 
solitary Native club in 1992 to 179 clubs serving 82,000 youth 
today. How can we replicate this success and reach many more 
youth in need in the immediate years ahead?
    Boys and Girls Clubs of America stands ready to partner 
with those from all sectors who share our passion for making a 
difference and who wish to join us in harnessing the power and 
potential of our Native youth for the betterment of our great 
Nation.
    In closing, today in Indian Country, we desperately need 
additional and dedicated funding to support our Native youth. 
Today, I have provided testimony that what we do today in our 
Boys and Girls Clubs works. We need to expand this approach to 
reach thousands of more children who need us across this great 
country. I am asking that the Committee be supportive of 
reinstating the Tribal Youth Program of the OJJDP to its prior 
funding levels of $25 million and direct OJP to competitively 
award those funds to national organizations so that we can 
reach thousands of children and positively affect our 
generations ahead.
    [The prepared statement of Ms. Knapp follows:]

    Prepared Statement of Carla Knapp, National Director of Native 
               Services, Boys and Girls Clubs of America
    Good Afternoon, Kwey (hello). My name is Carla Knapp and I am a 
tribal member of the Penobscot Indian Nation, and the proud mother of 
two beautiful children--a 25-year-old son who is currently serving in 
the U.S. Air Force, and a 5-year-old daughter.
    I have 15 years of experience working with tribal youth through the 
Boys & Girls Clubs of America. I began my career by establishing a Boys 
& Girls Club to serve my home tribe, eventually becoming the Chief 
Professional Officer. Over time I worked to expand Club services to a 
wider area, partnering with five federally-recognized tribes to reach 
many more Native youth in need.
    In June of 2013 I joined the national staff of Boys & Girls Clubs 
of America, becoming a Director of Organizational Development for 
Native Clubs. Last year I became the National Director of Native 
Services, overseeing our entire network of Clubs serving youth in 
Indian Country.
    I am extremely honored and humbled to serve in this role, and to be 
here today on behalf of Native youth across the nation.
    In recognition of the extraordinary and unique challenges facing 
Native communities, including the enormous barriers that stand in the 
way of success for Native youth, Boys & Girls Clubs of America 
chartered its first Club in Indian Country in 1992.
    Today, 23 years later, Boys & Girls Clubs in Indian Country is a 
true success story--we are the nation's largest Native youth-serving 
agency, with 179 Native Clubs serving some 82,000 youth in 24 states, 
representing some 90 different American Indian, Alaska Native and 
Hawaiian communities.
    The Boys & Girls Club legacy in America goes back 155 years, and 
has always been driven by several fundamental principles. We believe 
every child in America deserves:

  <bullet> A safe place to go after school
  <bullet> A place that is available when they need it the most
  <bullet> A place that is fun
  <bullet> A place that is clean and well-maintained, and gives them a 
        sense of belonging and pride
  <bullet> A place that is affordable regardless of their financial 
        circumstances
  <bullet> A place where their friends are, and where they can make new 
        friends
  <bullet> A place with trained, professional staff
  <bullet> A place that offers life-changing programs
  <bullet> A place that provides hope and opportunity.

    And because we strive to offer these amenities at every Club, we 
also believe:

  <bullet> Every child deserves a Boys & Girls Club.

    Over the past 23 years, the Boys & Girls Clubs in Indian Country 
have proven to be a game-changer for Native youth, by helping them 
overcome the many societal issues and personal obstacles they face in 
their communities and home environments.
    Many national studies have consistently shown that Native Americans 
suffer disproportionately, compared with other groups in the United 
States, from diseases and death connected to alcoholism, drugs and 
substance abuse.
    Furthermore, the persistent issues of unemployment, poverty, 
physical and sexual abuse and a host of other risk factors existing in 
Indian Country, have created a climate where suicide, alcoholism and 
drug abuse amongst tribal youth is continually perpetuated.
    There are many statistics that paint a grim and alarming portrait 
of the well-being of Native youth in America today. Because time is 
limited, I will offer just two:

        1. In 2012, 36 percent of American Indian/Alaska Native 
        children lived in poverty, compared with 13 percent of white 
        children and 22 percent of all children. In the same year, 64 
        percent of Native children lived in low-income families, 
        compared with 32 percent of white children and 45 percent of 
        all children. \1\
---------------------------------------------------------------------------
    \1\ Institute of Education Sciences, http://nces.ed.gov/programs/
coe/indicator_cce.asp and National Center for Children in Poverty, 
http://www.nccp.org/publications/images/0-18-2014fig6.png

        2. Among Native youth ages 15 to 24, suicide is the second 
        leading cause of death. Native teens experience the highest 
        rates of suicide of any population in the country. \2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Health and Human Services, Office of 
Minority Health, http://www.minorityhealth.hhs.gov/omh/
browse.aspx?lvl=4&lvlID=39

    These two facts alone provide a sober assessment of the 
circumstances that face our Native young people growing up in America 
today. In our written testimony, which all of you have received, we 
include many more statistics, all of which speak dramatically to the 
need for more resources and commitment to addressing the needs of 
Native youth in America.
    Our Clubs offer an antidote to these challenges, by attracting and 
guiding young people with core programs in five areas:

  <bullet> Education and Career Development, which teaches basic 
        educational disciplines and technology, and supplements the 
        role of the school;

  <bullet> Character and Leadership Development, which emphasizes 
        interpersonal relationship-building, self-image and 
        contribution to the community;

  <bullet> Health and Life Skills, which encourages goal-setting and 
        self-sufficiency;

  <bullet> The Arts, which nurture creativity, cultural awareness and 
        appreciation for the arts in all forms; and

  <bullet> Sports and Recreation, which develop physical and social 
        skills, enhance stress management and appreciation for the 
        environment.

    These programs are available to youth in grades K through and 12 
and are administered by caring adults who greet the children with 
smiles and encouragement every day.
    While much empirical and anecdotal evidence exists pertaining to 
the impact of the Boys & Girls Club experience, we strive to constantly 
measure, evaluate and improve the experiences and outcomes achieved by 
Club members.
    One of the key indicators we have used over time has been a series 
of surveys, originated by well-known researchers Lou Harris & 
Associates, gauging the ultimate impact of the Club experience. In the 
last survey, implemented in 2007, 57 percent of former members said the 
Club ``saved my life.'' Upon further probing, many said they meant this 
literally.
    So we know from this testimony, and from many objective studies 
conducted over the last decade, that how kids spend their out-of-school 
time exerts a huge influence on staying in school, avoiding encounters 
with the law, and going on to successful futures as contributing 
citizens and leaders. We believe, given the circumstances in which they 
live, that this truth applies even more tenderly to young people on 
Indian Lands.
    During the past five years, in our efforts to increase 
accountability and pursue continuous improvement, Boys & Girls Clubs of 
America has made a major commitment to the measurement and evaluation 
of program effectiveness and impact. BGCA established the National 
Youth Outcomes Initiative, which collects comprehensive data on the 
experiences and outcomes of Boys & Girls Club members in a consistent 
manner, using a common set of research-informed indicators and 
measures.
    Following are a few examples of what we have found related to the 
impact of the Club experience on Native youth.
1. Reducing Youth Delinquency
    Research over time clearly indicates that youth who become involved 
with delinquency and illegal activities have a high rate of dropping 
out of high school, and concurrently, diminish their future prospects, 
in terms of not continuing their education, achieving a promising 
career path, or earning a decent living.
    Our findings: Among teen-aged Native Club members who participated 
in BGCA's National Outcomes Survey in spring 2015, 91 percent reported 
never being arrested in the past year.
    Another Proven Results:
    Evaluations have shown that public housing communities with Boys & 
Girls Clubs that implemented SMART Moves experienced 13 percent fewer 
juvenile crimes, 22 percent less drug activity, and 25 percent less 
crack cocaine presence than similar sites without Boys & Girls Clubs. 
\3\ Another study of parent involvement in SMART Moves found that 
regular parent involvement in SMART Moves activities increased youths' 
ability to refuse alcohol and marijuana beyond that of programs without 
a parental component.
---------------------------------------------------------------------------
    \3\ Pope, C.E. et al (1995). Evaluation of Boys and Girls Clubs in 
Public Housing. U.S Department of Justice. National Institute of 
Justice. Washington D.C.
---------------------------------------------------------------------------
2. Societal Costs Associated with Negative Youth Outcomes
  <bullet> In the U.S., state correctional facilities spend an average 
        of $408 per day--and an average of $149,000 per year--to 
        incarcerate one juvenile. \4\
---------------------------------------------------------------------------
    \4\ Petteruti, A., Schindler, M. and Ziedenberg, J. (2014). 
Calculating the Full Price Tag for Youth Incarceration (Washington, 
D.C.'' Justice Policy Institute), http://www.justicepolicy.org/
research/8477.

        --Every 10 youth Boys & Girls Clubs divert from incarceration, 
---------------------------------------------------------------------------
        could save as much as $1.5 Million.

  <bullet> Over a lifetime, the medical costs associated with childhood 
        obesity total about $19,000 more per child than those for a 
        child of normal weight. \5\
---------------------------------------------------------------------------
    \5\ Finkelstein, E.A., Graham, W.C.K. and Molhotra, R. (2014). 
``Lifetime Direct Medical Costs of Childhood Obesity,'' Pediatrics, 
Vol. 133, No. 5, 854-862, http://pediatrics.aapublications.org/content/
133/5/854.short.

        --Every 100 youth Boys & Girls Clubs help develop habits that 
        enable them to maintain a healthy weight, could save as much as 
---------------------------------------------------------------------------
        $1.9 million in lifetime medical costs.

        --According to the Centers for Disease Control and Prevention, 
        31 percent of Native Youth are obese, a rate 177 percent higher 
        than that of the general population. Whereas only 30 percent of 
        all U.S. youth get physical exercise every day, Boys & Girls 
        Clubs' outcome data reports 60 percent of Native Club youth 
        exercise 5 or more days per week.

    Another Proven Result:
    Over the past 10 years, T.R.A.I.L., a diabetes prevention program 
has been implemented in Boys & Girls Clubs in Indian Country to provide 
youth with the skills necessary to lead healthy lives while also 
sharing knowledge with their surrounding community. The impact of the 
T.R.A.I.L. program in Indian Country is astounding: In total, 
T.R.A.I.L. participants have logged 4.2 million physical activity 
minutes from 2003-2014. T.R.A.I.L. participants' daily physical 
activity level increased by nearly 87 percent in a 28 week period in 
the 2013-2014 program year.
3. Economic Impact Estimates Associated with Positive Youth Outcomes
  <bullet> The average lifetime economic benefit to our nation for 
        every young person who graduates from high school is $209,100. 
        \6\
---------------------------------------------------------------------------
    \6\ Levin, H.M. et al. (2007). The Costs and Benefits of an 
Excellent Education for All of America's Children (New York: Center for 
Benefit-Cost Studies of Education, Teacher's College, Columbia 
University).

        --For every 100 struggling students Boys & Girls Clubs help to 
        graduate, our economy benefits by $21 million in lifetime gains 
---------------------------------------------------------------------------
        in productivity.

        --Approximately 41 percent percent of incarcerated individuals 
        lack a high school education, \7\ and the high school 
        graduation rate for Native American/Alaskan Native youth 
        overall is 70%. \8\ In contrast, 95 percent of Native Boys & 
        Girls Club teens expect to graduate from high school, according 
        to BGCA outcome data.
---------------------------------------------------------------------------
    \7\ U.S. Department of Justice (2003). Bureau of Justice Statistic 
Report.
    \8\ National Center for Educational Statistics (2015), https://
nces.ed.gov/ccd/tables/ACGR_2010-11_to_2012-13.asp.

4. Economic Impact Estimates Associated with Out-of-School-Time 
        Programs
  <bullet> It costs Boys & Girls Clubs as little as $15 per day--or 
        $790 per year--to produce a positive impact on a child. \9\
---------------------------------------------------------------------------
    \9\ Boys & Girls Clubs of America cost-per-child estimate based on 
annual report data submitted by Club organizations on average daily 
attendance and Club operating expenses.

    Taking these and many other impact indicators into account, we 
believe that Boys & Girls Clubs in Indian Country is one of the best 
bargains in America.
    In most tribal communities, Native children and youth comprise the 
largest proportion of the population, yet some 40 percent of students 
in Bureau of Indian Education schools on tribal lands fail graduate on 
time. \10\ Boys & Girls Clubs will continue to play a critical role in 
breaking a perpetual cycle of extreme poverty, low academic 
performance, and significant health problems. We envision Native youth 
on their path to great futures--succeeding in school, becoming 
community leaders, assuming roles as contributing members of the 
workforce, and engaging in regular physical activity and good 
nutrition.
---------------------------------------------------------------------------
    \10\ Bureau of Indian Education (2013), http://www.bie.edu/cs/
groups/xbie/documents/text/idc1-09021962.pdf.
---------------------------------------------------------------------------
    Boys & Girls Clubs in Indian Country have an unprecedented 
opportunity to help more Native youth to lead sustainable change, while 
embracing their culture and traditions. We believe generations of 
children to come will benefit from investments in programs and 
services, such as Boys & Girls Clubs, that help them grow into 
responsible adults--and that America stands to gain from the increased 
productivity and contributions of these future citizens and leaders.
    As mentioned earlier, Boys & Girls Clubs grew from one solitary 
Native Club in 1992, to 179 Clubs serving some 82,000 Native youth 
today. How can we replicate this success, and reach many more youth in 
need, in the immediate years ahead? Boys & Girls Clubs of America 
stands ready to partner with those, from all sectors, who share our 
passion for making a difference, and who wish to join us in harnessing 
the power and potential of our Native youth, for the betterment of our 
great nation.
    Thank you, Mr. Chairman (Sen. John Barrasso), and members of the 
Committee. That concludes my testimony.
    Attachments
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    

    The Chairman. Thank you very much for your testimony, Ms. 
Knapp. Thank you for the wonderful job you do as well as the 
Boys and Girls Clubs of America."
    Ms. Knapp. Thank you.
    The Chairman. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    I want to thank the Chairman and Ranking Member for holding 
this hearing today. I notice we have Wyoming outnumbered two to 
one here with Senator Tester and myself, but I am glad to have 
the West here.
    The Chairman. This meeting is adjourned.
    [Laughter.]
    Senator Daines. Mr. Listenbee, you mentioned in your 
testimony the importance of family connections in successfully 
working with young Native Americans and the juvenile justice 
system.
    In fact, just yesterday, I met with Judges Leroy and Sheila 
Notafraid, a husband and wife who are both judges in the Crow 
tribal courts. In fact, Sheila worked for four years in 
juvenile justice. She said a large number of the children that 
came before the court were being raised by grandparents or 
other relatives instead of the parents and that often these 
relatives do not have the resources needed to raise these kids. 
In fact, I asked her, how do you keep the emotional stability 
to keep hearing these heartbreaking cases oftentimes in the 
juvenile system?
    I also appreciate the mention you made of the Chippewa Cree 
Tribe of Montana and how they are using some traditional 
methods to engage youth in the juvenile justice system.
    My question is, what is the importance of having strong 
parental support in keeping these kids out of the juvenile 
justice system and making sure they contribute to the community 
and their people?
    Mr. Listenbee. We certainly recognize the critical 
importance of family engagement in the lives of our children in 
Indian Country. At this point in time, we have not developed 
any specific programs around family engagement.
    We do recognize that for all of our grant programs, we have 
to have cultural sensitivity in developing those programs, in 
whatever programs we develop and we have to have tribal 
engagement to focus on the kinds of issues that each tribe 
holds as its priority in this area.
    In addition, as we have gone forward, we ask consistently 
for involvement of the tribes in helping set up these kinds of 
programs. We have the Coordinated Tribal Assistance 
Solicitation Process in the Department of Justice, Office of 
Justice Programs. Through that program, all of our grants for 
tribes are awarded.
    We found that we have a flexible approach to providing 
those grants. Through that process, the tribes are permitted to 
establish their specific priorities for their tribal areas. We 
follow through on those priorities for the tribal areas.
    Senator Daines. Can you think of a couple of examples where 
you see tribes leading in that area, where they are seeing the 
best results?
    Mr. Listenbee. We certainly recognize in the defending 
childhood areas I mentioned, the two sites, we have had more 
opportunities to work with families in those areas. We 
recognize that children exposed to violence have significant 
experiences with trauma.
    We have learned that we must focus on and basically screen 
practically every child who comes in contact with a public 
health service to determine whether or not they have been 
exposed to violence and then provide trauma-informed care to 
ensure we can address whatever trauma children have 
experienced. Trauma derails the normal developmental processes 
of children. We know if we give the appropriate treatment, we 
can get them back on the right track.
    Senator Daines. Thank you, Mr. Listenbee.
    Mr. Cruzan, it is good to see you again today. We have 
discussed law and order issues in Indian Country before. I am 
glad you are here before the Committee again.
    In your testimony, you mentioned the Indian Law and Order 
Commission report entitled, A Road Map for Making Native 
America Safer. In that report, they talk about the lack of 
cooperation between Federal, State and tribal governments in 
the juvenile justice system when it comes to Native youth.
    Is this a problem you have seen? When a young Native 
American gets caught up in the Federal system, is there a lack 
of communication with the tribal government?
    Mr. Cruzan. As I mentioned, that is one of the things the 
tribes have said over and over. As a matter of fact, I was the 
Chief of Police at Crow and I can tell you without any question 
most of these youth are being raised or a good number of them, 
I should say, are being raised by their grandparents.
    The tribes, for a long time, have been telling us that we 
need to do something other than incarceration. I am happy to 
say that the Federal Government is working together. Our DOJ 
partners, SAMHSA and IHS are all working together to develop 
local solutions that involve the tribe. To say that we have 
worked real well together in the past would not be completely 
accurate but I would tell you there is a strong effort.
    Senator Daines. Thank you for that. It seems that the 
tribal authorities may know the particular young person, their 
background, their family situation because they are members of 
the same community and might provide a support system that is 
not going to exist if they get lost in the Federal system. We 
will see the same cycle repeat over and over again.
    Mr. Cruzan. I absolutely think people closest to those 
issues, the tribal leadership, have the solution, absolutely.
    Senator Daines. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Daines.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you so much, Mr. Chairman and Mr. 
Vice Chairman. This continues our discussion about what is 
happening and what we can do to improve conditions for Native 
American youth, an issue everyone on this Committee, I know, is 
extraordinarily passionate about.
    I was recently at the Mandan, Hidatsa and Arikara Nation 
RCRA Center and spent some time visiting people who work in 
human trafficking and people who work with victims. A young 
officer told me how she knew a couple of kids who would get in 
trouble just so they would have the stability of being 
incarcerated for a weekend, where they knew someone would 
actually listen to them, someone would actually feed them and 
make sure they were taken care of.
    That is a story that should break anyone's heart. I know as 
we look at kind of improving conditions or improving the 
situation for incarceration, we know this is a much bigger 
problem. We cannot keep band-aiding, isolating and siloing each 
one of these problems. We have to look at it systemically.
    Professor, you obviously know Congress is working very hard 
toward some kind of justice reforms. We hope juvenile justice 
reform will be a part of that, whether it is drug courts, early 
interdiction or diversion programs that give kids a chance to 
still participate in society because once they are marked, that 
is true in felony communities also, then that sets the course 
for the future.
    I know you made a lot of suggestions in your testimony but 
if you wanted to give advice to four Senators on what you would 
love to see in those reform packages, what three things would 
you recommend?
    Ms. Rolnick. There is obviously a lot that needs to be done 
and it is difficult to pick a few. Some of the reforms can be 
done at the agency level, some can be done at the tribal level 
and some require congressional intervention. That is why I 
think it is important to highlight it here.
    One is to get Native youth out of the Federal system 
whenever possible. I think the easiest way to do that is an 
amendment to the Federal Juvenile Delinquency Act to require 
deference to tribal prosecutions before children are prosecuted 
in Federal court.
    The second is to get them out of State systems whenever 
possible. It is pretty clear that State and Federal systems are 
not serving the youth well. That is a little trickier in terms 
of how to do that. It could be done through something like the 
Indian Child Welfare Act and extend it to cover delinquency. It 
could be done through an amendment to Public Law 280 to require 
deference to tribal jurisdiction.
    In all these cases, the tribes have concurrent jurisdiction 
but that jurisdiction has no requirement that the other 
governments respect that jurisdiction or even ask the tribe 
what to do with an individual case. Sometimes it happens 
because individual prosecutors are trying to cooperate, but 
sometimes it does not.
    The third piece is what is going on in the tribal system. 
Incarceration, as you mentioned, the problem of relying on 
incarceration, is not a problem unique to Indian Country. It is 
a sickness that we have in the country a whole and it is not 
going to be easy to move away from that.
    Tribes are actually better positioned than other 
governments. Even in this testimony, we heard that tribes have 
been saying for a long time, we do not want to lock up our 
kids, we would like to do something else. Funding, agency level 
and congressional policy are needed that supports tribes in 
their efforts to do that. You are more likely to see, for 
example, someone who is in charge of a tribal juvenile system 
also related to the kids and knows something about what to do 
with them in the community. Support their efforts to come up 
with creative solutions to do that instead of building jails.
    Senator Heitkamp. One of the things I will tell you I think 
we fail in is we fail to screen kids very well who go into the 
system, whether it is fetal alcohol effects, trauma-induced 
behavior, non-consequential thinking, just a fundamental 
disparity. What would you recommend we screen for in kids so we 
have a better idea of who is entering the system and how we can 
better divert or interdict earlier?
    Ms. Rolnick. I know there are tools being developed, for 
example, to screen kids coming into contact with the juvenile 
system for experience with trauma. I think you are absolutely 
right that screening is important both when they come into the 
system and earlier. The earlier we can identify things like 
mental health or substance abuse issues, those kids can be 
reached before they get into the system.
    The other piece of that is you can do all the screening in 
the world and do it well. But if you have nothing to do with 
those kids after you screen them, you could find out that all 
of the kids or 90 percent of the kids were suffering from 
mental health issues. If there was nowhere to put them, it 
would not matter that you screened them well. That is an 
important piece of it as well.
    Senator Heitkamp. Professor, that is one of the reasons why 
I have a little concern about your first two suggestions. I 
think the tribes are strapped for resources. I think they are 
having a hard time meeting current demand.
    To say now you are going to take on this additional 
responsibility to the extent kids are going to fall through the 
cracks, we need to be very, very cautious that along with that 
recommendation comes resources or programming that actually 
makes a difference.
    If I may be indulged a little bit, one of the things I am 
hearing frequently is that once kids are incarcerated in the 
Federal system, they are not given educational opportunities. I 
would like someone on the panel to address that concern because 
these are kids who have an opportunity during that period to 
actually progress and learn. If they are simply warehoused, 
that is unconstitutional and it is inappropriate.
    Mr. Cruzan. Senator Heitkamp, I can answer that question. 
When we talk about Federal facilities, I think we are also 
talking about federally-funded tribal and BIA facilities. I 
have a list of the 23 and it explains what level of education 
they get in there.
    Certainly the BIA facilities have education in there. I 
would say there may be an instance, I would have to look and be 
very clear to give you a 100 percent accurate answer, but I can 
tell you all of the Federal BIA facilities have education in 
them.
    This is no excuse. I am not saying that it is any less 
important, but a good number of the kids we get coming through 
our facility are there for three or four days, and it is very 
difficult to develop an individualized education plan for them.
    We do have a contract in place funded by BIA OJS and 
monitored by the Bureau of Indian Education. We did not feel we 
necessarily had the expertise to ensure those things were being 
done properly and we knew there was a responsibility to have 
it. We wanted people who knew education to be overseeing that 
for us.
    The Chairman. Thank you very much. Senator Lankford?

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you, Mr. Chairman. Thank you all 
for being here as well.
    To follow up on your statement, Mr. Cruzan, the challenge 
here is the Department of Interior is managing both juvenile 
justice and criminal justice in Indian Country, educational 
issues, health care issues, mineral rights issues, and water 
issues.
    There are many things in which other agencies have 
expertise, but BIA has to do a bit of everything for Indian 
Country. We end up with a lot of people being swamped and 
overrun in trying to develop this. That is a larger issue with 
which we have to deal in the days ahead.
    We are asking all these different agencies to be 
specialists, except for BIA which we ask to be a generalist and 
know something about everything. There will always be 
challenges with staff and more finances running from the 
designed model around that.
    The family side of this is the other part I want to follow 
up on. Ms. Knapp, I want to talk with you about the Boys and 
Girls Clubs of America and what is happening in those 
communities. The core foundation of this is very often a family 
issue where we are dealing with juveniles. What are the most 
effective things, not incarceration, but trying to help protect 
those kids before they ever get to that point? What are we 
seeing is most effective on the family side of things?
    Ms. Knapp. We all know that parental involvement is 
extremely important and we recognize there sometimes seems to 
be a lack of parental involvement across Indian Country.
    Speaking on behalf of Boys and Girls Clubs in Indian 
Country, we can say we are there every day, four hours after 
school, year round. We are a consistent place with positive 
role models. I know we do not replace the parent but we provide 
those opportunities for youth and we do become a big family. 
That is what Indian Country really is about.
    I believe all of our clubs embrace family involvement. We 
have many programs that include the family component. There is 
a component in our Smart Moves Program. Actually, a study was 
done on that. The study found regular parental involvement in 
Smart Moves reduced juvenile delinquency and alcohol and 
marijuana use. We do believe in and support parental 
involvement through our Boys and Girls Clubs programs.
    Senator Lankford. Can we discuss successful area for 
juveniles? You discussed local tribes and not Federal or State 
facilities. In my State of Oklahoma, the Sac and Fox Nation 
runs a juvenile program. Other tribes also use that and have 
had a positive response. How many other tribes have a facility 
where there is juvenile justice at the facility?
    Ms. Rolnick. You are talking about detention facilities?
    Senator Lankford. Yes.
    Ms. Rolnick. I count somewhere around 30 although I know 
Mr. Cruzan counts about 23. There is a lot of information that 
we still do not have about this like how many facilities are 
there, how are they run. Some are run, for example, by tribes 
without help from the BIA, so they are not on the BIA list.
    Are there facilities that house just juveniles or some that 
house a combination of juveniles and adults and then what kinds 
of programs are used? There is a real need for more attention 
to that and more research.
    I am aware of no research that actually involves what is 
going on in tribal justice systems. I think there is a good 
reason to think they work better, that the local programs are 
more responsive, for example, but there is also reason to think 
a jail is a jail or if it is a jail with a lot of traditional 
elements and decorations, it might not be that different than a 
jail outside Indian Country.
    I think there is a big black hole of information about 
which of those programs are working well. I always hesitate to 
name specific programs unless research has been done on them 
and they have been tagged evidence-based programs. There really 
are not very many or any of those that have been researched for 
Native youth in Indian communities.
    I will say though I worked with some youth in Alaska. The 
Southeast Alaska Regional Health Corporation runs a substance 
abuse treatment program called Raven's Way. It is not a locked 
facility; it is a substance abuse program funded by medical 
money, not justice money. The kids told me, I do not know 
anymore about it than what they told me, but when I interviewed 
them, they said this is the place that sometimes we are sent 
when we get in trouble and it really works. To the extent that 
I can say there is a program that is out there, that one seems 
to be working and it is not even a detention facility.
    Senator Lankford. Mr. Cruzan, do you know of a facility, 
location or tribal entity that you would represent as a good 
example, saying this is a turnaround facility and they are 
having success?
    Mr. Cruzan. Yes, I have a couple that come to mind. One is 
out East and one is in the middle of the Country. Basically, 
the tribe has said, we are going to bring our Federal partners 
to our facility, sit with them around the table, tell you what 
the problem is and then, Federal partners, you are going to 
point to which of these issues you can address.
    They are fairly recent things developing right now. I am 
happy to discuss that more with you later. We are seeing 
success there. The success is getting the Federal partners to 
the table and the tribe identifying specific issues and what 
they want addressed which at both has been youth.
    Senator Lankford. Thank you for that. That is what I always 
try to bring up. There are 566 tribes nationwide, and there are 
some success stories and some places to be able to replicate 
these things. When we talk about some of the problems, I always 
want to make sure we reaffirm the solutions are out there as 
well.
    Thank you. I yield back.
    The Chairman. Thank you very much, Senator Lankford. 
Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Barrasso.
    I want to go back to the tail end of his question. If there 
are things that are working, what is it? Is it the cultural 
side? Mr. Cruzan, and others may want to weigh in on this. Is 
it because the particular tribe has adopted things within the 
tribe, so when they learn someone is in the system, they can 
deal with it? What couple of things would you put your fingers 
on that really make a difference?
    Mr. Cruzan. I think that is an excellent question.
    I will tell you having worked with numerous tribes over the 
last five years on a number of different pilot issues, some 
have been tremendously successful and some have not. I think 
the common denominator every time it has been successful is 
when tribal leadership leads, takes the point on it and says 
here is our issue, here is how we want to fix it, what can you 
do, Federal partners, to help us?
    Oftentimes, it is the tribes that have the capacity within 
sometimes to finance some of those issues through different 
ventures. We are also working with a couple of tribes right now 
who do not necessarily have that capacity that are also showing 
demonstrated success.
    I think without question there is a funding aspect that 
comes with it. But if I were to say the most important thing, I 
would say tribal leadership taking the lead. They are already 
taking ownership for problems. I am saying taking the lead, 
saying this is what we are going to do and we are going to walk 
through this together.
    Senator Udall. Do any of the other panelists have a comment 
on that?
    Mr. Listenbee. If I may, we have a tribal youth program 
funded by Congress going back to 2010. The tribal youth program 
empowers young people to pursue the development of leadership 
and leadership skills.
    We found the metrics we have used to measure it indicate 
there are low levels of offending, low levels of recidivism, 
improved school performance and also there is reduced alcohol 
and substance abuse for those engaged in tribal leadership.
    This past weekend, there were 1,800 tribal youth here in 
Washington, D.C. They are part of the Youth Gathering the White 
House sponsored last week.
    I met with several young people and one of the things that 
truly inspired me about them was that many of them came to 
Washington paying their own way. They have been part of a 
broader movement for a long period of time. They have been 
leading these youth organizations regionally and in their 
tribal areas for quite a while and are gaining the kind of self 
confidence and exposure that is going to allow them to be 
successful in life. I think it is important to recognize that.
    One other thing I would indicate is last year we also began 
sponsoring Tribal Healing and Wellness courts for young folks 
who have substance abuse issues and alcohol specifically. We do 
not have the data on that yet, but we are looking forward to 
seeing how the combination of traditional drug courts with 
tribal healing and wellness components is going to actually 
affect young people.
    Senator Udall. Thank you. Ms. Rolnick?
    Ms. Rolnick. I wanted to just add when we usually think of 
the justice system, we think of the flagship detention 
facilities and the courts. There is a lot more to it and I 
think it is really important to remember the other parts of it.
    For significant mental health treatment or incarceration, 
it is hard to tell which of those programs work. I think the 
ones that work do incorporate tradition but maybe not only 
traditional approaches. There is probably a lot more that needs 
to go into those.
    I think where you see the incorporation of tribal 
traditions flowering more is at the early intervention stages. 
A lot of tribes run what we do not usually think of as 
delinquency programs or leadership programs.
    Santa Clara Pueblo has a running club for kids. It is not 
part of their detention system or part of their juvenile 
system, but running is traditional to people who are runners. 
They are incorporating something that is traditional. It is 
just an activity at this point, not officially part of their 
juvenile system.
    Those programs that incorporate what is already going on in 
the community and historically what the kids and the people in 
that community have done actually are already successful. Kids 
end up going to them. They are the ones who go to Washington 
and become leaders before they get into the system. That is the 
part I think we need to think of in terms of funding as part of 
juvenile justice, not something that is outside of it.
    Senator Udall. I have been running with the Santa Clara 
Pueblo kids and that keeps them out of trouble.
    Thank you very much. I appreciate the panel.
    The Chairman. Thank you, Senator Udall. Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you to the panel. I am sorry that I was not able to 
hear your testimony. I was able to look at what you have 
submitted.
    Mr. Listenbee, I wanted to ask you a couple of years ago at 
the Alaska Federation of Natives Convention, there was a very 
powerful presentation given by a group of Native children, 4-
H'ers out of the community of Tanana, an Athabaskan village in 
the interior. These kids, probably from the ages of 7 to 15 or 
16, I would say, stood up in front of a crowd of about 3,000 to 
4,000 people and basically said, grownups, we have had enough. 
We are tired of alcohol abuse in our community, we are tired of 
the drugs, we are tired of the violence, and we are tired of 
this chaos. We are tired that you all are no longer good role 
models for us in our village. We want to make the change. We 
want to be that agent of change.
    You feel pretty humbled, I tell you, when you have a group 
of kids standing up in front of thousands of adults and 
basically saying, shape up. You have not shaped up, so we are 
going to take charge. It was a pretty powerful moment for 
everyone in that room in Fairbanks.
    I came back and wrote a letter to Attorney General Holder 
and asked that he come in and talk with me about how the 
Department of Justice could support communities that have 
reached this point where they say, we have had enough, we want 
to do something.
    I want to talk about whether or not it was targeted 
assistance that needed to be applied. You have the Consolidated 
Tribal Assistance solicitation but needless to say, the 
Attorney General and I had a quick, stand up conversation. He 
appeared interested in it.
    The letter we got back from the Office of Legislative 
Affairs was pretty non-responsive and I will tell you about it.
    Today, I want to ask you how we can get to a better 
understanding in terms of what is available. Your testimony 
talks about these various competitive grant programs and the 7 
percent set-aside which is competitive but that is more 
stovepiped, not the kind of holistic, broader approach that can 
really help set the communities straight.
    The Consolidated Tribal Grant Solicitation has been 
criticized because effectively what you are doing is pitting 
communities that have problems against each other. I have a 
problem over here in this community; I have a problem over 
here. They both need to be solved but you are pitting one 
against the other. The losers in that competition have to fend 
for themselves.
    My question is whether, within the Department of Justice 
construct, you have anything to offer these small Native 
communities which want to make immediate changes? They have the 
motivation and some leadership to make this happen but we have 
not been able to find anything that can really help assist 
them? Do you have anything to offer this afternoon?
    Mr. Listenbee. Senator, first of all, we heard from the 
Advisory Committee on American Indian and Alaska Native 
Children Exposed to Violence those very same concerns about 
Alaska. We also heard and I read articles about what those 
youth said to the leadership there. It was heard all over the 
Country.
    Senator Murkowski. It was very powerful.
    Mr. Listenbee. It really was. I just want to say that we 
have tried not to stovepipe funding for tribal youth just into 
CTAS. We make a point in all of our solicitations referencing 
American Indian and Alaska Native Advisory Committee reports 
for people to try to find responses to them.
    I would specifically reference one regarding mentoring. You 
mentioned 4-H. We have asked all of our national mentoring 
organizations, organizations that have mentoring in more than 
45 States. They are required to advise us how they are going to 
provide funding for American Indian and Alaska Native children. 
That is part of the solicitation process itself. That is not 
directly in CTAS but just outside of it with the substantial 
funding we get for tribal youth.
    Also, in Alaska, we have the Rural Community Action 
Program, RurAL CAP. When I was up there for the hearings with 
the American Indian and Alaska Native Advisory Committee, I met 
with the leadership of that organization. I am convinced, 
Senator, they are very passionate, well informed, understand 
tribal youth, understand kids who run away, kids who are being 
trafficked and are doing a good job trying to address those 
concerns.
    I am open for further discussions with your staff, between 
your staff and staff at the Department of Justice, to try and 
find other solutions. I might add I also had an opportunity to 
live in the State of Alaska for 16 months and to work on the 
North Slope, so I have some understanding of the challenges of 
distance, weather, the high cost of transportation and other 
challenges for children in your State. We are willing to 
consider further conversations on this issue.
    Senator Murkowski. I would welcome that. We should follow 
through with this because, as you know, it is not always an 
issue just of money and the available resources.
    I think about some of the efforts we put in place some 
years ago with Boys and Girls Clubs to establish Boys and Girls 
Clubs around the rural areas and some of the more isolated 
communities. It was a fabulous effort that gave hope and a 
purpose to so many of these kids. Then Boys and Girls Clubs 
funding is cut back and all these programs were pulled. Those 
kids felt abandoned again.
    Making sure we have not only an opportunity to compete 
fairly for these programs and these opportunities but that 
there is a level of sustainability is something I would like to 
explore further. I would welcome that conversation with you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski. Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    Thank you for your statement, Senator Murkowski. I think 
predictability in funding is really critically important in a 
lot of these programs. I do not know if there is a lot of 
predictability out there.
    I want to thank you, Mr. Chairman, for holding this 
hearing. I think it is very, very important to have a sustained 
focus on issues impacting Native youth. You have done that as 
Chairman of this Committee. I appreciate that.
    As we dig in on this topic, I do want to remind the members 
of this Committee that when we talk about juvenile justice, we 
are talking about kids, we are talking about children and more 
often than not, if we are talking about children, we have 
talked about a failure in the system on this Committee. We 
really need to provide these children with a high quality, 
culturally-responsible education that will keep them in school 
and give them options. We need to make sure they have safe, 
reliable housing so they have a place to go after school and 
feel safe and protected.
    We need to make sure they have adequate health care so they 
are developing healthy and appropriate minds and bodies from 
the beginning. Simply put, if we do not do that, we have failed 
these children in so many, many ways. It is imperative that we 
do not continue to fail them as they enter the juvenile justice 
system. I am dismayed at the staggering statistics that 
describe the state of affairs for Native youth involved in the 
criminal justice system in this country. Not only are Native 
children facing poverty, exposure to violence and many other 
risk factors at home, when they go to school, a place that 
ought to be safe, they face a multitude of additional risk 
factors, including more severe and punitive punishment by 
school officials.
    A recent study in my home State of Montana revealed that 
our Native youth are suspended and expelled at disproportional 
rates and children who are suspended or expelled from school 
are 26 percent more likely to be involved in the legal system. 
Somewhere this system of juvenile justice is broken and it is 
especially broken for Native children.
    I am encouraged the BIA and the DOJ have started to view 
juvenile justice from the lens of prevention and diversion. I 
agree that incarceration should be the last resort when dealing 
with our Native youth. This is an important shift in reframing 
this issue because it places the emphasis on how we can heal 
our kids rather than how we are going to punish them.
    One of our witnesses on this panel today, Mr. Listenbee, 
made an important observation in the Indian Law and Order 
Commission Report to Congress where he said, too often children 
exposed to violence are labeled as bad or delinquent or simply 
troublemakers. We ask these children, what is wrong with you? 
Instead, a more accurate question is what happened to you? I 
think this question is exactly the right question and should be 
at the heart of the work we are doing here as we look to 
address Native youth in our juvenile system.
    So many risk factors leave Native youth vulnerable. It is 
crucial that we examine policies and programs that contribute 
to helping the resiliency within tribal communities and helping 
to keep our kids engaged in healthy activities so there is less 
idle time to spend on dangerous activities.
    That is why I recently introduced my after-school bill 
which creates a grant program for eligible tribal entities to 
establish or maintain extracurricular activities for Native 
youth. I hope to work with the folks on this panel to move 
these bills forward to support healthy alternatives to keeping 
kids out of jail.
    I also visited with Leroy Not Afraid yesterday, a judge 
from the Crow Indian Reservation. He talked about a kid who was 
supposed to be sentenced today, as a matter of fact, not a kid 
but a young man now, 18 years of age, who first got in trouble 
when he was 5 years old and continued to get in trouble. Now he 
is an adult and obviously was going to be sent to prison. I am 
sure that is what happened today.
    As he told the story, you could not help but think, as I 
have told you the same story, what went wrong? A five year old 
kid that gets in trouble in the system and continues to get in 
trouble for the next 13 years and nobody says, whoa. I do not 
know how many time this happens but I think it happens far too 
much because I can tell you that one in five males in prison, 
one in ten are Native American and by the way, it is about 6 
percent of the total population, 20 percent are Native 
American, and fully a third of the females in prison are Native 
American.
    The question, for anyone who wants to answer it, is what do 
we really need to be doing here? We can sit here and talk about 
this. We can talk about the effectiveness of afterschool 
programs, and it is very effective and there are great 
programs, but what do we need to be doing?
    What should this group of folks up here, the great Senators 
on the Indian Affairs Committee, be focused on to keep chronic 
offenders that start at the age of five and end up in adult 
prison at 18? Mr. Cruzan, you have your eyes focused on me. I 
will ask you first.
    Mr. Cruzan. I would agree with you 100 percent. I had that 
in my mind. I was not sure if it would be appropriate for me to 
say but I would agree that if we are talking about incarcerated 
juveniles or rehabilitating juveniles, we have failed them.
    Senator Tester. Good.
    Mr. Cruzan. I am a parent and a Federal law enforcement 
officer. Neither one of those individuals thinks it is 
necessarily only the government's responsibility to raise my 
kids. I think healthy families are a huge part of this.
    No question the kids we are talking about have seen alcohol 
and drug abuse and violence way more than they should have. Of 
course they are going to be struggling with some of these 
issues. Of course we need to be working and thinking about how 
we help them.
    Equally important, I think, is keeping more kids from 
coming down that conveyor to the criminal justice system. The 
Tiwahe Initiative is something we are working on right now. 
Tiwahe in Lakota is family. It is a pilot program where we are 
working with an Alaska corporation and a few other tribes to 
say, the government is not going to fix this for you but we are 
absolutely partners in this with you. We have to focus on the 
family as well as the juveniles.
    I think the juveniles in the system are a symptom, not 
necessarily the root of the problem. I think that is something 
that happens because we are not doing very well in the rest of 
the environment, in my opinion.
    Senator Tester. Mr. Listenbee?
    Mr. Listenbee. I agree with Mr. Cruzan. I worked on 
reforming the juvenile justice system in Philadelphia before 
coming to the national level. We had to narrow the front door 
through diversion programs, through drug core programs, through 
delinquency-dependency crossover programs so children who were 
dependent were sent back to the dependent system. We had to 
work on, with graduated response courts, so the kids who went 
through the juvenile justice system and who had technical 
violations of probation were given second chances. We had to do 
a lot of things.
    I do not think there is any one magic bullet. I think it 
will take a variety of different approaches. I start where 
Senator Heitkamp started in her comments to tribal youth at the 
gathering last week. We must understand that trauma is an 
important ingredient. But we have to go back upstream and see 
if we can stop the trauma from happening as early as possible. 
When we do encounter it, we need trauma-informed care.
    Senator Tester. I appreciate your comments.
    I would just say I, for one, and I know others as well, am 
going to continue to try to fight for adequate funding for a 
lot of these underfunded programs. I could not agree with you 
more that we are not going to solve the problems even if we 
throw far more money than they need. It is going to take a 
joint effort of folks on the ground working with us. If you can 
help us do this, and we need to help ourselves do this, by the 
way, then I think we can get to a point where the juveniles are 
the most important resource in this world and are treated 
better than we have been treating them.
    Thank you all for your testimony.
    The Chairman. Thank you, Senator Tester.
    Mr. Cruzan, I would like to follow up a bit on what Senator 
Tester began with, because your written testimony also 
highlighted several initiatives focused on alternatives to 
incarceration for juveniles based on the view that 
incarceration does, many times, more harm than good. The 
initiatives included systematic, comprehensive assessments of 
the need, the risk, response specific to each juvenile in the 
system, so individually focused.
    You talked about healthy families and the Tiwahe 
Initiative. Can you elaborate on any other ideas or how those 
assessments are conducted in terms of what you are trying to do 
with the individualization and how to address it?
    Mr. Cruzan. Absolutely. I think it is a little cliche but 
they are the best I have here. We found working with our tribal 
partners that one size does not fit all, certainly with the 
individual offender who shows up in the system.
    We are working as part of this pilot effort on an 
assessment tool that will better help courts when offenders do 
come into the system to point them towards the services they 
need. It may be anger management, suicide ideations, drug or 
alcohol treatment they need as opposed to just sending them to 
a treatment facility. We are trying to be smarter about 
services we provide.
    The Chairman. Mr. Listenbee, Professor Rolnick stated in 
her written testimony that Native youth often fall under State 
jurisdiction and further notes that the tribes are not included 
in some of the large scale juvenile justice policy decisions 
which affect tribal youth.
    Mr. Listenbee, your written testimony talks about the 
Department of Justice working on an initiative to bring 
together all the systems serving youth to access services and 
resources. How can the department incentivize States to work 
with the tribes to address the challenges the juvenile justice 
system is facing?
    Mr. Listenbee. Senator, the coordination between tribes and 
States is critical if we are going to be successful in bringing 
about change. We are attempting to find ways to encourage the 
States to be willing to work cooperatively and more 
cooperatively with the tribes than they have in the past. There 
are a variety of available techniques still in their infancy in 
development, including MOUs and other kinds of tools. We are 
looking to do that.
    One of the things most striking to us is formula grant 
funds have been reduced dramatically in the last several years. 
We provide grants to States and in order for States to use some 
of those funds to assist tribes, we would really benefit from 
the restoration of some of those funds to be able to follow 
through on that.
    One other thing I would say is that we talk about 
assessments and assessments are critical. But assessments 
without a direct match to services for the specific needs of 
children will not solve the problem. That is both with tribes 
and off reservation as well. Keep in mind that 60 percent of 
our tribal youth are not on reservations. We are looking to 
figure out how to provide services to them in the places where 
we find them.
    The Chairman. Following up what Mr. Cruzan said, one size 
does not fit all. What we do look for, as Senator Lankford made 
clear, ways that work and want to replicate things that work. 
As you are working with States, if you find an incentive 
situation that works well, anything we can do to help that get 
implemented in other places would be helpful.
    Mr. Listenbee. We certainly are willing to cooperate with 
that, Senator.
    The Chairman. Thank you.
    Professor Rolnick, the Indian Law and Order Commission and 
the Attorney General's Advisory Committee both suggest focusing 
on prevention and intervention strategies for juvenile justice. 
According to the Bureau of Prisons, Federal juvenile offenders 
that have committed violent offenses do not respond well 
sometimes to community preventive efforts or intervention 
strategies. If the preventive and intervention methods do not 
deter violent offenses, what other strategies do you think we 
should be following?
    Ms. Rolnick. I guess I question a little bit the suggestion 
that in general, juvenile offenders do not respond well to 
community interventions. It requires the community intervention 
to be a good one. Not all kids are going to respond to all 
programs. There are going to be different needs.
    There are a lot of levels of gradations of intervention. 
There is getting kids in pre-school, getting kids before they 
come into the system, there are diversion programs, and 
probationary type programs. There is any number of types of 
levels of severity of alcohol and drug type treatment. There is 
group counseling, inpatient treatment and a whole range of 
largely unexplored chances to do non-detention type 
interventions.
    The idea that there are kids who just do not respond to 
anything early and we need to lock them up, I guess I have 
serious questions about that. In general, this is not limited 
just to the tribal context. Mostly the agreement among juvenile 
justice experts now is that incarceration is something that you 
should use for kids who pose a public safety threat, violent 
offenders or people who are going to escape. That is a pretty 
limited class of youth. I think there is a forest of programs. 
There are also a lot of jurisdictions who are exploring things 
like non-locked residential facilities or in-home monitoring 
that are versions of something more serious but do not require 
locked detention.
    The Chairman. Thank you.
    Ms. Knapp, I am so impressed with the work you are doing. 
Mr. Listenbee stated in his written testimony that troubled 
youth often have better outcomes when they receive community-
based services. Professor Rolnick stated in her written 
testimony that many rural areas lack access to these community-
based services, like the Boys and Girls Clubs, for intervention 
and diversion. There are some Boys and Girls Clubs operating in 
rural areas. They have been a huge success in Wyoming. They are 
a positive place for kids and do a wonderful job. We do have a 
Boys and Girls Club operating on the Eastern Shoshone Tribe in 
my home State.
    Can you discuss how the Boys and Girls Clubs have been able 
to improve access to the club's services in rural areas and on 
Indian reservations?
    Ms. Knapp. Absolutely. I am really pleased to say that Boys 
and Girls Clubs of America has truly embraced Boys and Girls 
Clubs in Indian Country. They have gone a step beyond and I am 
so pleased that they even developed a Native Service Team where 
every Boys and Girls Club in Indian Country receives a Director 
of Organizational Development that provides services to those 
communities and how we reach out to them. They are actually 
assigned a dedicated staff person who is Native and goes right 
into their Boys and Girls Club and provides culturally-relevant 
programming and services.
    In addition, we created geographical training that we bring 
to them that makes them culturally-relevant to their needs. 
Being a Native person, we know we have many similarities and 
there are just as many differences.
    We provide opportunities to our five core program areas 
where they can embed their own cultural and traditions into the 
program. Boys and Girls Clubs of America recognizes that need 
and is beginning to change a lot of our programs to meet the 
needs of our Native youth.
    The Chairman. Can you talk about some of the factors 
overall that contribute to the Boys and Girls Clubs success?
    Ms. Knapp. There are so many. First, I would go back to 
when you talked about diversion and prevention.
    Every ten youth Boys and Girls Clubs diverts from 
incarceration can save $1.5 million. We know they spend an 
average of $408 per day to incarcerate a child. Boys and Girls 
Clubs in Indian Country has the unprecedented opportunity to 
impact Native youth through our programming.
    The Chairman. Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman.
    I would like to thank all the witnesses for coming today.
    Mr. Listenbee, you listed several programs aimed to keep 
young people from entering the juvenile justice system in the 
first place. In your opinion, which of the programs you 
mentioned has been the most successful in deterring juvenile 
crime and why?
    Mr. Listenbee. Our experience is that there are a wide 
range of prevention programs. From our experience, it really 
depends upon the priorities of the tribe we are working with 
and what they see as the best way of addressing their criminal 
justice, juvenile justice and safety priorities.
    Clearly, from past experiences, we encourage mentoring 
programs in general. This year, in our solicitation for our 
mentoring programs, we have made it a requirement that all 
national mentoring programs who submit an application for 
funding must provide, with clarity, an indication of how they 
are going to work in Indian Country to provide mentoring for 
American Indian and Alaska Native youth.
    In addition, we have recommended our Tribal Youth Program. 
Our Tribal Youth Program has a variety of different components, 
including meetings and summits, leadership programs, training 
and providing some skill development. They were recently here 
in Washington, D.C. where there was a Tribal Youth Program 
sponsored by the White House.
    We recommend all three as ways of addressing issues, along 
with tribal healing and wellness courts which address some of 
the substance abuse issues tribal youth are encountering.
    Senator Hoeven. The challenge is making sure there is 
collaboration between tribal, local and Federal government 
officials. How can the DOJ do a better job of facilitating that 
cooperation with tribal, local and Federal agencies?
    Mr. Listenbee. Senator, we are working closely with the 
Bureau of Indian Affairs. Mr. Cruzan and I are working on the 
model Juvenile Indian Tribal Codes. We have worked to find a 
code that can be used by all tribes and look at it from a 
continuing point of view and pull out those things directly 
relevant to the particular tribe.
    We are also working together in a variety of other ways.
    Senator Hoeven. Mr. Cruzan, your testimony noted several 
programs that take an alternative to incarceration. Of the 
programs you mentioned that take this different approach, which 
do you think are the most successful?
    Mr. Cruzan. I think the ones led by the tribes themselves. 
I feel this comes together at a very good point at courts but I 
do not necessarily think traditional courts always work the 
best. I like the approach being taken by one of our partners in 
the East where they have juvenile courts.
    When juveniles offend that are not drug or violent 
offenses, they bring in juveniles to help adjudicate and talk 
through how that will work and accountability to their peers.
    To me, it is anything alternative to incarceration with a 
real emphasis on diversion out of a typical courtroom setting.
    Senator Hoeven. Were you going to say drug court?
    Mr. Cruzan. I did say drug court I think.
    Senator Hoeven. I agree. I think that has been tremendously 
successful.
    Ms. Knapp, what is most helpful to Boys and Girls Clubs in 
terms of helping with Native services and so forth? What would 
help you do more?
    Ms. Knapp. To find partners who share the same passion and 
help us to expand our footprint in Indian Country.
    Senator Hoeven. When you say partners, do you mean other 
nonprofits?
    Ms. Knapp. It could be Federal partners, corporations, 
working with tribal leaders who would like a Boys and Girls 
Club. I feel for success in growing our footprint, it would be 
very important to have partnerships and buy-ins with the tribe 
to open a Boys and Girls Club on their land.
    Senator Hoeven. Who are some of your partners now?
    Ms. Knapp. Our Federal partners are OJP, Indian Health 
Services and we have several corporations onboard as well.
    Senator Hoeven. Ms. Rolnick, the same question I asked 
starting with Mr. Listenbee, what do you think is the single 
most effective thing that can be done?
    Ms. Rolnick. I hope you forgive a little bit of 
redirection. There are a range of early intervention programs 
that I think do work well, different types of substance abuse 
treatment and different types of early intervention. They are 
different in different communities. None of that is going to 
work if the Federal and State governments do not get out of the 
way a little bit and let tribes carry out those programs.
    To give you an example of what I mean, there was a young 
girl who got in trouble. It was a car accident that came from 
either drug or alcohol use, under the influence driving, and I 
think someone may have been killed in the accident. The primary 
issue was substance abuse.
    The tribal court charged her and decided to put her in a 
treatment program. Then the Federal prosecutors charged her as 
well and decided to send her to Federal prison. You cannot do 
both. The Federal priority undermined what the tribe was trying 
to do in terms of its non-detention alternative.
    If that kind of thing keeps happening, that is a direct 
continuation of what we basically learned the hard way is the 
wrong thing to do with Native youth. You cannot take them out 
of communities in the name of saving them. That is sort of the 
hard lesson that was learned and that the Indian Child Welfare 
Act was passed to counteract.
    We cannot keep doing that with Native youth. Healing youth 
means healing communities and it means letting those 
communities figure out, with resources from other governments 
but not directed by other governments, what it is that works 
best for their kids.
    Senator Hoeven. Thank you to all of you again. I appreciate 
you being here.
    The Chairman. There are no further questions. Members will 
have time to submit written questions. The hearing record will 
remain open for two weeks.
    The Committee has much to consider following today's 
hearing. I look forward to much more work on this important 
issue.
    I want to thank each of the witnesses for being here, for 
your time and testimony.
    The hearing is adjourned.
    [Whereupon, at 3:31 p.m., the Committee was adjourned.]

                            A P P E N D I X

Prepared Statement of Thomas M. Susman, Director, Governmental Affairs 
                                 Office
    Dear Chairman Barrasso and Vice Chairman Tester:
    I write to present the views of the American Bar Association with 
regard to the state of juvenile justice in Indian country. I request 
that this letter be included in the record of your July 15 oversight 
hearing, ``Juvenile Justice in Indian Country: Challenges and Promising 
Strategies.''
    Within an ever-changing legal, economic, and cultural landscape, 
the challenges facing American Indian and Alaska Native youth are 
numerous and complex. The Indian Law and Order Commission (ILOC), an 
independent national advisory commission created by the Tribal Law and 
Order Act in 2010, has undertaken a comprehensive examination of this 
issue and presented findings and recommendations in Chapter Six of its 
November 2013 Report to the President and Congress, A Roadmap for 
Making Native America Safer.
    After extensive review of the Commission's work, the ABA endorsed 
the Report's recommendations and is committed to advancing their 
implementation. The blackletter recommendations contained in Chapter 
Six (``Juvenile Justice: Failing the Next Generation'') are attached to 
this letter; the entire report is available at: http://
www.aisc.ucla.edu/iloc/report.
    The Commission's 12 recommendations regarding juvenile justice are 
grounded in findings that Native youth are among the most vulnerable 
group of children in the United States as a result of centuries of 
harmful public policies that continue to inflict intergenerational 
trauma on children in Indian country. Upon entering the juvenile 
justice system, tribal youth are further endangered by being thrust 
into an exceedingly complicated web of jurisdictional rules and 
sentencing limitations that subject them to complex and inadequate 
federal and state juvenile justice systems. While the ABA supports all 
12 recommendations, we believe it is of utmost importance that tribes 
are empowered with meaningful decisionmaking authority about their own 
juvenile justice systems and that greater emphasis is placed on 
providing alternatives to incarceration and culturally appropriate 
intervention and support. With this focus in mind, we would like to 
highlight several of the Commission's recommendations.
Recommendations Concerning Jurisdiction
    Native youth are disproportionately incarcerated in the federal 
system where they do not receive age-appropriate educational 
instruction or assistance because the federal system does not have a 
juvenile division and is not equipped to provide these services. The 
Commission recommends that Congress strengthen tribal jurisdiction over 
Indian children by empowering tribes to opt out of federal and state 
juvenile jurisdiction entirely, except for federal laws of general 
application. The Commission's recommendation would cut through the 
current jurisdictional maze and enable youth to receive meaningful and 
appropriate intervention.
    If tribes choose not to opt out entirely, Congress should provide 
tribes with the right to consent to any U.S. Attorney's decision before 
federal criminal charges against any juvenile can be filed. The 
Commission explained that requiring tribal consent would help ensure 
that community standards are applied and tribal sentencing options 
carefully considered before any federal prosecution could proceed.
Recommendations Related to Strengthening Tribal Justice for Native 
        Youth
    The Commission found that juvenile cases are inconsistently 
referred to the federal or county system in P.L. 83-280 states, not 
because tribes lack sufficient sentencing authority, but because tribes 
frequently lack the resources to address the youths' need for 
treatment. The Commission recommends reallocating federal and state 
resources to tribes that assume exclusive jurisdiction over juvenile 
justice. To do this effectively, a single agency within the U.S. 
Department of Justice should be designated to distribute block funding 
to tribes rather than funding being disbursed through unpredictable and 
burdensome grant programs. Furthermore, funds should be provided at a 
level of parity with non-Indian systems. Because Native youth will 
continue to be incarcerated in both federal and state systems as well, 
federal and state juvenile justice systems should maintain proper 
records of their entry into the system and adopt a consistent data 
collection system that includes information about tribal membership. 
Finally, a single federal agency should be created to coordinate data 
collection, examine specific needs, and make recommendations for Native 
youth.
Recommendations Concerning Detention and Alternatives
    Native youth who enter the federal or state justice system often 
are incarcerated far from their homes and communities and detained in 
facilities with no youth educational programs or opportunities. The 
Commission recommends that federal, state and tribal justice systems 
seek to provide alternatives to incarceration and that all youths 
should be provided trauma-informed screening and care, preferably in a 
community-based setting.
    Similarly, violent Native juveniles should be provided treatment 
and detention facilities within a reasonable distance from the 
juvenile's home. The ABA emphasizes the importance of providing 
alternatives to incarceration and early and appropriate screening and 
treatment.
Recommendations Concerning Intergovernmental Cooperation
    The Commission recommends amending the Federal Delinquency Act, 
which currently fosters federal consultation and coordination with 
states and U.S. territories, to include tribes and to extend their 
authority to allow or prevent transfer of a juvenile for prosecution as 
an adult regardless of the child's age or offense. The Commission also 
recommends improving cooperative measures between tribes and local 
governments by amending the Indian Child Welfare Act to provide that 
when a state court initiates delinquency proceedings involving an 
Indian child, all of its notice, intervention, and transfer provisions 
will apply.
    The recommendations of the ILOC Report regarding juvenile justice 
in Indian country seek to replace outdated and top-down bureaucracies 
with locally based approaches that will enable tribal governments to 
provide justice in their own communities and more effectively address 
the disproportionate amount of violence occurring in Indian country 
today. These approaches align with long-standing ABA policies 
supporting criminal justice system improvements and tribal self-
determination.
    We urge the Committee to endorse these recommendations and make 
their enactment a priority this Congress. We stand ready to assist you 
however we can.
    Thank you for your consideration of the ABA's views.

    Attachment: Chapter 6 Recommendations
A Roadmap for Making Native America Safer--Chapter 6--Juvenile Justice: 
                      Failing the Next Generation
Recommendations
    6.1 Congress should empower Tribes to opt out of Federal Indian 
country juvenile jurisdiction entirely and/or congressionally 
authorized State juvenile jurisdiction, except for Federal laws of 
general application.
    6.2 Congress should provide Tribes with the right to consent to any 
U.S. Attorney's decision before Federal criminal charges against any 
juvenile can be filed.
    6.3 Because resources should follow jurisdiction, and the rationale 
for Tribal control is especially compelling with respect to Tribal 
youth, resources currently absorbed by the Federal and State systems 
should flow to Tribes willing to assume exclusive jurisdiction over 
juvenile justice.
    6.4 Because Tribal youth have often been victimized themselves, and 
investments in community-oriented policing, prevention, and treatment 
produce savings in costs of detention and reduced juvenile and adult 
criminal behavior, Federal resources for Tribal juvenile justice should 
be reorganized in the same way this Commission has recommended for the 
adult criminal justice system. That is, they should be consolidated in 
a single Federal agency within the U.S. Department of Justice, 
allocated to Tribes in block funding rather than in unpredictable and 
burdensome grant programs, and provided at a level of parity with non-
Indian systems. Tribes should be able to redirect funds currently 
devoted to detaining juveniles to more demonstrably beneficial 
programs, such as trauma-informed treatment and greater coordination 
between Tribal child welfare and juvenile justice agencies.
    6.5 Because Tribal communities deserve to know where their children 
are and what is happening to them in State and Federal justice systems, 
and because it is impossible to hold justice systems accountable 
without data, both Federal and State juvenile justice systems must be 
required to maintain proper records of Tribal youth whose actions 
within Indian country brought them in to contact with those systems. 
All system records at every stage of proceedings in State and Federal 
systems should include a consistently designated field indicating 
Tribal membership and location of the underlying conduct within Indian 
country and should allow for tracking of individual children. If State 
and Federal systems are uncertain whether a juvenile arrested in Indian 
country is in fact a Tribal member, they should be required to make 
inquiries, just as they are for dependency cases covered by the Indian 
Child Welfare Act.
    6.6 Because American Indian/Alaska Native children have an 
exceptional degree of unmet need and the Federal government has a 
unique responsibility to these children, a single Federal agency should 
be created to coordinate the data collection, examine the specific 
needs, and make recommendations for American Indian/Alaska Native 
youth. This should be the same agency within the U.S. Department of 
Justice referenced in Recommendation 6.4. A very similar recommendation 
can be found in the 2013 Final Report of the Attorney General's 
National Task Force on Children Exposed to Violence.
    6.7 Whether they are in Federal, State, or Tribal juvenile justice 
systems, children brought before juvenile authorities for behavior that 
took place in Tribal communities should be provided with trauma-
informed screening and care, which may entail close collaboration among 
juvenile justice agencies, Tribal child welfare and behavioral health 
agencies. A legal preference should be established in State and Federal 
juvenile justice systems for community-based treatment of Indian 
country juveniles rather than detention in distant locations, beginning 
with the youth's first encounters with juvenile justice, Tribes should 
be able to redirect Federal funding for construction and operation of 
juvenile detention facilities to the types of assessment, treatment, 
and other services that attend to juvenile justice.
    6.8 Where violent juveniles require treatment in some form of 
secure detention, whether it be through BOP-contracted State 
facilities, State facilities in P.L. 83-280 or similar jurisdiction, or 
BIA facilities, that treatment should be provided within a reasonable 
distance from the juvenile's home and informed by the latest and best 
trauma research as applied to Indian country.
    6.9 The Federal Delinquency Act, 18 U.S.C.  5032, which currently 
fosters Federal consultation and coordination only with States and U.S. 
territories, should be amended to add ``or tribe'' after the word 
``state'' in subsections (1) and (2).
    6.10 The Federal Delinquency Act, 18 U.S.C.  5032, should be 
amended so that the Tribal election to allow or disallow transfer of 
juveniles for prosecution as adults applies to all juveniles subject to 
discretionary transfer, regardless of age or offense.
    6.11 Federal courts hearing Indian country juvenile matters should 
be statutorily directed to establish pretrial diversion programs for 
such cases that allow sentencing in Tribal courts.
    6.12 The Indian Child Welfare Act should be amended to provide that 
when a State court initiates any delinquency proceeding involving an 
Indian child for acts that took place on the reservation, all of the 
notice, intervention, and transfer provisions of ICWA will apply. For 
all other Indian children involved in State delinquency proceedings, 
ICWA should be amended to require notice to the Tribe and a right to 
intervene.
                                 ______
                                 
    Prepared Statement of the National Indian Education Association
Introduction
    Chairman Barrasso, Vice Chairman Tester, thank you for this 
opportunity to submit written testimony on behalf of the National 
Indian Education Association (NIEA) regarding the hearing that the 
Committee held on juvenile justice in Indian Country. Education funding 
is critical to the rehabilitation of Native children in the 24 BIA-
funded juvenile detention centers and to reducing recidivism. Without 
access to educational resources, already disadvantaged Native children 
are sitting in detention centers losing ground. NIEA requests the 
Committee's support for the restoration of funding for juvenile 
detention education in Indian country.
The State of Emergency in Native Education
    As Secretary of Education Arne Duncan recently acknowledged, 
``Native youth are in a state of crisis,'' and the ``lack of 
opportunity is simply unacceptable.'' \1\ For instance, Native students 
are not experiencing the improvement in graduation rates that is 
applauded in the rest of the country. Native graduation rates overall 
are the lowest of any racial/ethnic demographic group at around 67 
percent. Bureau of Indian Education (``BIE'') graduation rates are even 
worse, often hovering around 50 percent. Native students also continue 
to lag behind their peers on other important educational indicators, 
such as reading and math. \2\ This overall state of emergency in Native 
education is particularly acute for Native youth who are detained or 
incarcerated at BIA-funded juvenile detention centers. Without access 
to educational resources, these children fall even further behind their 
peers.
---------------------------------------------------------------------------
    \1\ Emma Brown, ``Obama Budget Includes $1 billion for Native 
American Education,'' Washington Post (Jan. 30, 2015).
    \2\ See the National Indian Education Study, http:///nces.ed.gov/
nationsreportcard/nies/.
---------------------------------------------------------------------------
The Trust Responsibility for Native Education
    Established through treaties, federal law, and U.S. Supreme Court 
decisions, the federal government's trust responsibility to tribes 
includes the obligation to provide educational access to all American 
Indian and Alaska Native students. This obligation is a shared 
responsibility between the Administration and Congress with regard to 
federally recognized Indian tribes. Despite the pressing need for 
funding parity and equal access, historical funding trends illustrate 
that the federal government has been abandoning its trust 
responsibility by decreasing federal funds to Native-serving programs 
by over half in the last 30 years. Funds for juvenile detention 
education have been one of the many casualties of this trend. Native 
students have been wholly abandoned in BIA-funded juvenile detention 
centers without adequate access to educational services.
Restoring Education Funding in BIA-funded Detention Centers
    Prior to 2012, approximately $620,000 was provided in the Interior 
budget for education services at BIA-funded juvenile detention 
facilities. Although this was a relatively small amount of money given 
the need for educational programs in the 24 BIA-funded juvenile 
detention facilities, these funds provided critical educational 
services. Since 2012, however, this account has not been funded. In 
some facilities, this has meant that detained and incarcerated children 
lack all access to educational services. Classrooms literally sit empty 
because there is no funding for educational programs. \3\ Detained and 
incarcerated children languish in these facilities as they fall further 
and further behind their peers, placing them at an even greater 
disadvantage than other Native children when they return to school.
---------------------------------------------------------------------------
    \3\ See Sari Horwitz, From Broken Homes to A Broken System, THE 
WASHINGTON POST (Nov. 28, 2014), available at http://
www.washingtonpost.com/sf/national/2014/11/28/from-broken-homes-to-a-
broken-system/.
---------------------------------------------------------------------------
    Meanwhile, we know that one of the best methods to rehabilitate 
individuals is through education. Education builds self-esteem for 
these struggling youth, provides something productive for them to focus 
their energies on while they are detained or incarcerated, and reduces 
recidivism. Tribes have, therefore, repeatedly requested the 
restoration of funding for juvenile detention education. The House 
Interior Appropriations Report recently responded to these requests by 
providing that its budget recommendation ``includes $1,000,000 to 
restore juvenile detention education program grants.'' H. Rep. 114-170, 
p. 38. NIEA requests that the Senate Committee on Indian Affairs 
support the fulfillment of this recommendation and the restoration of 
juvenile detention education programs in Indian Country.
Conclusion
    The current state of Native education demonstrates the failure to 
fulfill the United States' trust responsibility to Native youth. 
Nowhere is this reality more stark than for the children detained or 
incarcerated in BIA-funded juvenile detention centers without adequate 
access to educational resources. We request the Committee's support for 
the restoration of juvenile detention education funding for Indian 
country, which is critical to the support and rehabilitation of some of 
this country's most vulnerable children.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Al Franken to 
                             Darren Cruzan


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
